                   OFFICE O F INSPECTOR GENERAL
          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                            Audit of Corporation for National
                                 and Community Service
                                   Grants Awarded to
                       North Carolina Commission On Volunteerism
                                 and Community Service
                                      Raleigh, N. C.

                             OIG Audit Report Number 02-08
                                     June 18,2001


                                   Financial Schedules
                                           and
                              Independent Auditor's Reports
                                      For the Period
                           January 1,1994 to September 30,2000


                                        Prepared by
                            Leonard G. Birnbaum and Company
                               Certified Public Accountants
                                   6285 Franconia Road
                                Alexandria, Virginia 22310



                      Under DOS Contract No. S-OPRAQ-99-D-0020
                               Delivery Order CNS-08


This report was issued to Corporation management on February 8, 2002. Under the laws and
regulations governing audit follow up, the Corporation must make management decisions on the
report's findings and recommendations no later than August 8, 2002, and complete its corrective
actions by February 8,2003. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                   Office of Inspector General
                         Corporation for National and Community Service
                                       Audit Report 02-08

       Audit of Corporation for National and Community Service Grants Awarded to
          North Carolina Commission on Volunteerism and Community Service

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National
and Community Service Act, awards grants and cooperative agreements to state commissions,
nonprofit entities, tribes and territories to assist in the creation of full and part time national and
community service programs. Currently, in accordance with the requirements of the Act, the
Corporation awards approximately two thirds of its ArneriCorps StateNational funds to state
commissions. The state commissions in turn fund and are responsible for the oversight of
subgrantees who execute the programs. Through these subgrantees, AmeriCorps members
perform service to meet educational, human, environmental, and public safety needs.

OIG retained L. G. Birnbaum and Company to audit Corporation grants to the North Carolina
Commission for AmeriCorps, Learn and Serve, Professional Development and Training, Promise
Fellows and Administrative costs from January 1, 1994 through September 30, 2000. During
this period, the Commission received approximately $20 million in funding authority from the
Corporation. The audit's objectives were to determine whether (1) the Commission's financial
reports presented fairly the financial results of the grants; (2) the internal controls adequately
safeguarded federal funds; (3) the Commission and its subgrantees had adequate procedures and
controls to ensure compliance with federal laws, applicable regulations, and award conditions;
(4) costs were documented and allowable under the grants' terms and conditions; and (5) the
Commission adequately informed its subgrantees of the Corporation's objectives.

The auditors identified questioned costs of $614,235 (approximately four percent) of the
$14,351,222 of costs that the Commission claimed during the audit period. Of the $614,235 of
questioned costs, $370,360 was questioned because the Commission andlor its subgrantees were
unable to provide documentation to support the claimed costs.' A significant portion of this
amount ($174,522) resulted from costs for which supporting documentation was prematurely
destroyed under state record retention policies. Other costs questioned included excessive living
allowances, living allowances questioned because key eligibility documentation could not be
located, and related administrative expenses.




 Questioned costs are costs for which there is documentation that the recorded costs were expended in violation of
Federal laws, regulations or the specific conditions of the award, costs which require additional support by the
grantee, or which require interpretation of allowability by the Corporation.
The report includes 17 recommendations to the Commission to address weaknesses in the areas
of compliance and internal controls. Five of these recommendations relate to the following
findings that are considered material weaknesses:

          The Commission did not track expenditures by budget line item as required by
          the Commission's provisions.
          The Commission is unable to track matching requirements to actual tracking
          expenditures as required by Corporation provisions.
          Grant records were destroyed although a final Financial Status Report had not been
          submitted.
          Amounts drawn down, as reported by Health and Human Services, are not reconciled
          to amounts reflected on the Commission's records.
           Subgrantees failed to maintain documentation as required by AmeriCorps Provisions.

OIG has reviewed the report and the work papers supporting the auditors' conclusions. We agree
with the findings and recommendations presented.

OIG provided the Commission and the Corporation a draft of this report for their review and
comment. Their responses are included in their entirety as Appendices A and B, respectively.
The Commission disagreed with a number of the findings but reported corrective action on some
of them. The auditors have summarized the Commission's responses to the individual findings
within the report itself.

OIG recommends that the Corporation conduct additional oversight and monitoring of the
Commission to evaluate new procedures and controls with testing at both the Commission and at
the subgrantee level and to determine whether these corrective actions are effective.
                 Audit of Corporation for National and Community Service
                                   Grants Awarded To
            North Carolina Commission On Volunteerism and Community Service
                                       Raleigh, N. C.

                                                      Table of Contents



REPORT SUMMARY AND HIGHLIGHTS:

       Results in Brief ..............................................................................................

        Grant Programs Audited ................................................................................

        Costs Questioned ...........................................................................................

        Compliance ....................................................................................................

        Internal Control ............................................................................................

        Purpose and Scope of Audit ...........................................................................

        Background ....................................................................................................


INDEPENDENT AUDITOR'S REPORT..................................................................

FINANCIAL SCHEDULES:

        Consolidated Schedule of Award Costs .........................................................

        Exhibit A - Schedule of Award Costs:
                    AmeriCorps ................................................................................

                   Schedule A-1 - Schedule of Award Costs:
                                  North Carolina State University ...............................

                   Schedule A-2 - Schedule of Award Costs:
                                  North Carolina Low Income Housing Coalition ......

                   Schedule A-3 - Schedule of Award Costs:
                                  University of North Carolina at Chapel Hill ............

                   Schedule A-4 - Schedule of Award Costs:
                                  University of North Carolina at Greensboro
                                  ACCESS Program ....................................................
                  Schedule A-5 - Schedule of Award Costs
                                University of North Carolina at Greensboro
                                 Child Care Corps Program .......................................                  21

        Exhibit B - Schedule of Award Costs:
                    Learn & Serve.............................................................................     23

                  Schedule B-1 - Schedule of Award Costs
                                 Catawba Valley Area Girl Scouts.............................                      24

                   Schedule B-2 - Schedule of Award Costs
                                  Western Carolina Center For Volunteer Services                                   26

         Exhibit C - Schedule of Award Costs:
                     Professional Development and Training (PDAT) ......................                           27

         Exhibit D - Schedule of Award Costs:
                     Administration.. ..........................................................................   28


COMPLIANCE AND INTERNAL CONTROLS:

         Independent Auditor's Report on Compliance and Internal Controls
                Over Financial Reporting ...................................................................       31

                   Compliance Findings: ........................................................................   32
                                           . .
                   Internal Control Findings: ..................................................................   42

                   Follow-up on Pre-Audit Survey Findings: .......................................                 54

RESPONSES TO REPORT

North Carolina Commission on Volunteerism and
       Community Service ......................................................................................
                                                                                                             Appendix A

Corporation for National and Community Service .................................................... Appendix B
REPORT SUMMARY AND HIGHLIGHTS
                        L E O N A R D G. BIRNBAUM                   AND     COMPANY, LLP
                                         CERTIFIED PUBLIC ACCOUNTANTS
                                                   WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                ALEXANDRIA, VA 22310-2510


                                                       (703) 922-7622
                                                    FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                         WASHINGTON, D.C.

LEONARD G. BIRNBAUM                                                                                   SUMMIT. NEW JERSEY

DAVID SAKOFS                                                                                      REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




      Inspector General
      Corporation for National and Community Service


      This report is issued under an engagement to audit the costs claimed by the North Carolina
      Commission on Volunteerism and Community Service and its subrecipients from January 1, 1994
      through September 30, 2000 under the grants awarded by the Corporation for National and
      Community Service. This report focuses on the audit of claimed costs, instances of noncompliance
      with federal laws, applicable regulations or award conditions, and internal control weaknesses
      disclosed during the audit at the Commission and its subrecipients.

                                                  Results in Brief

      As a result of our audit of these awards, we are questioning costs totaling $614,235 (approximately
      four percent) of the total of $14,351,222 claimed by the Commission. Questioned costs are costs for
      which there is documentation that the recorded costs were expended in violation of the law,
      regulations or specific conditions of the award, or those costs which require additional support by
      the grantee or require interpretation of allowability by the Corporation. Of the $614,235 of
      questioned costs, $370,360 was questioned because the Commission and/or its subrecipient(s) were
      unable to provide documentation to support the claimed costs. A significant portion of this amount
      ($174,522) represents costs for which supporting documentation was destroyed. Other costs
      questioned included excessive living allowances, living allowances questioned because key
      eligibility documentation could not be located, education awards related to those members whose
      key eligibility documentation could not be located, and related administrative expenses. Details
      related to questioned costs appear in the Independent Auditor's Report.

      We found that, during the earlier grant years, the Commission lacked appropriate and effective
      controls for overseeing and monitoring its subrecipients. Additionally, the Commission failed to set
      a proper example as to how its subrecipients should monitor and oversee their second-tier
      subrecipients. However, we noted during the audit that the Commission expended considerable
      effort since 1999 in implementing more effective controls over the financial and programmatic
      performance of its subrecipients.




                            MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
Our audit also disclosed that, because the Commission is a unit of the North Carolina state
government and must use the state's accounting system, the Commission lacks the ability to track
expenditures by budget line item without extensive analysis. Details related to these and other
noncompliance findings appear in the Independent Auditor's Report on Compliance and on Internal
Controls Over Financial Reporting.

                                   Grant Proprams Audited

Our audit of the Commission covered financial transaction, compliance and internal controls testing
of the following program awards funded by the Corporation:

  Program             Award Number              Award Period               Audit Period
AmeriCorps            94ASCNC034               1/1/94 to 12/17/00         111194 to 9/30/00
Learn & Serve         94LCSNC010               9/1/94 to 12131/00         9/1/94 to 9/30/00
PDAT                  95PDSNC027               1/1/95 to 12131/00         1/1/95 to 9/30/00
Administration        94SCSNC027               1/1/94 to 12131/00         1/1/94 to 9/30/00

Our audit of the costs claimed by the Commission under these awards disclosed the following:

                                                                         Percentage of
                                                  Amount                 BudgetIClaimed
Award Budget                                    $16,270,346                       -
Claimed Costs                                    14,351,222                     88%
Questioned Costs                                    614,235                      4%

                                        Costs Ouestioned

The following summarizes the costs questioned on these awards:

AmeriCorps Grant
           Member Living Allowances - Overpayments          $ 21,042
           Member Living Allowance - Lack of
              Eligibility Documentation                        79,970
           Unsupported Costs (Lack of Documentation)          195,219
           Unexpended Funds Not Returned to the Commission
              Or Corporation                                   42,27 1
           Unauthorized Expenditure                             2,674
           Administrative Costs Questioned - Incorrect Rate    13,162
           Administrative Costs Questioned - Applicable To
              Other Questioned Costs                           13,763
Total Costs Questioned - Claimed Costs                       368,101
Questioned Education Awards                                    42,525
Total Costs Questioned - AmeriCorps                          4 10,626
Learn and Serve
           Unsupported Costs (Lack of Documentation)       $ 73,022
           Unexpended Funds Not Returned to the Commission   19,473
           Reclassifications From Administrative Grant       (1,859)
Total Costs Questioned - Learn and Serve                     90,636

PDAT
           Unsupported Costs (Lack of Documentation)               $       433
           Reclassification From Administrative Grant                   (1,249)
Total Costs Questioned - PDAT                                      (816)

Administration
           Unsupported Costs (Lack of Documentation)               $ 101,686
           Other                                                         3,171
           Questioned Costs Due To Match Shortfall                       5,189
           Reclassifications                                             3,743
Total Costs Questioned - Administration                                113,789

Total Costs Questioned - All Grants                                $ 614,235

In most cases, we used a random sampling method to test the costs claimed. Based upon this
sampling plan, questioned costs in this report may not represent total costs that may have been
questioned had all expenditures been tested. In addition, we have made no attempt to project such
costs to total expenditures incurred, based on the relationship of costs tested to total costs. For a
complete discussion of these questioned costs, refer to the Independent Auditor's Report.



Our audit disclosed the following instances of noncompliance with federal laws, applicable
regulations and award conditions:

           The Commission did not submit Financial Status Reports (FSRs) on a timely basis.
           The Commission did not submit Federal Cash Transaction Reports on a timely basis.
           Required Commission approval for an equipment purchase was not obtained.
           Required Commission approval for insurance expense was not obtained.
           Subrecipients FSRs were not submitted on a timely basis.
           Subrecipients paid living allowances in excess of authorized amounts.
           North Carolina State University (a subrecipient) did not comply with Cost Accounting
           Standard 501, since it was unable to compare estimated costs to actual costs by budget
           line item.
           A subrecipient's AmeriCorps member performed activities prohibited by Corporation
           provisions.
              The Commission did not meet Administrative Grant matching requirements for one year.

                                          Internal Controls

Our audit disclosed the following weaknesses in the Commission's internal controls:

              The Commission did not track expenditures by budget line item as required by the
              Commission's provisions.
              The Commission is unable to track matching requirements to actual tracking
              expenditures as required by Corporation provisions.
              Grant records were destroyed although a final FSR had not been submitted.
              Amounts drawn down, as reported by HHS, are not reconciled to amounts reflected in
              the Commission's records.
               Subrecipients did not maintain documentation as required by ArneriCorps Provisions.
               Overpayments to subrecipients were undetected for long periods after grant completion.
               Subrecipients lack an understanding of required financial and accounting controls.
               Learn and Serve subrecipients lack an understanding of all grant requirements.

The first five of these findings are considered to be material weaknesses as defined on page 41.

                                    Purpose And Scope Of Audit

  Our audit covered the costs claimed under Corporation Grant Nos. 94 ASC NC 034, 00 ASC NC
  034'00 ASF NC 034,94 LCS NC 010,OO LCS NC 034'95 PDS NC 027 and 94 SCS NC 027.

  The principal objectives of our audit were to determine whether:

         1.       Financial reports prepared by the Commission presented fairly the financial results
                  of the awards;

         2.       The internal controls were adequate to safeguard federal funds;

         3.       The Commission and its subrecipients had adequate procedures and controls to
                  ensure compliance with federal laws, applicable regulations, award conditions and
                  that member services were appropriate to the programs;

         4.       The award costs reported to the Corporation were documented and allowable in
                  accordance with the award terms and conditions; and

         5.       The Commission had established adequate oversight and informed subrecipients of
                  the Corporation's objectives.
We performed the audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards (1994 Revision) issued by the Comptroller
General of the United States. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the amounts claimed against the awards, as presented in the
Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs (Exhibits
A through D), are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in Exhibits A through D. An audit also includes
assessing the accounting principles used and significant estimates made by the auditee, as well as
evaluating the overall financial schedule presentation. Our audit included reviews of audit reports
and working papers prepared by the independent public accountants for the Commission and its
subrecipients in accordance with the requirements of OMB Circular A- 133, Audits of States, Local
Governments and Non-profit Organizations. Our audit also followed up on the findings and
recommendations in the Pre-Award Survey Report of NCCVCS dated October 8,1999 (CNS OIG
Report 00-06). We believe our audit provides a reasonable basis for our opinion.

The contents of this report were disclosed to and discussed with the Commission at an exit
conference on August 29,2001. In addition, we provided a draft of this report to the Commission
and to the Corporation for comment on November 29,2001 and received responses from both the
Commission and the Corporation on December 21,2001 and January 2, 2002, respectively. Their
responses, included in their entirety as appendices A and B, respectively, take issue with some of
the report's findings and recommendations. The Commission did not respond to all costs that were
questioned as a result of our audit. We have included the Commission's responses to costs
questioned only for those costs questioned upon which the Commission commented.

                                           Background

The Corporation, pursuant to the authority of the National and Community Service Act, as amended,
awards grants and cooperative agreements to state commissions, and other entities to assist in the
creation of full and part time national and community service programs.

The Commission has received approximately $20 million in funding and exercised $15 million in
drawdowns from the Corporation since 1994, including AmeriCorps formula funds, AmeriCorps
competitive funds, Learn and Serve funds, PDAT funds, Promise Fellowship funds and
Administration funds. Of this amount, approximately $12 million was distributed to subgrantees.
The majority of the Commission's subgrantees are state entities or nonprofit organizations.

As of September 30,2000, the Commission had received funding from the Corporation for various
programs since 1994 in the amount of $20,789,492. The majority of this amount has been
subgranted to numerous entities in order to carry out the programs. A brief synopsis of the programs
follows:
       Authorized                                                Drawndown
       94 ASC NC034 - ArneriCorps (Comp. & Form)
       00 ASC NC034 - ArneriCorps - Competitive
       00 ASF NC034 - ArneriCorps - Formula
          Total AmeriCorps

       94 LCS NCO 10 - Learn & Serve K- 12
       00 LCS NC034 - Learn & Serve K-12
          Total Learn & Serve

       99 APS NC034 - Promise Fellows

       97 DSC NC035 - Disability Funds

       99 ASH NC034 - Governor's Initiative

       95 PDS NC027 - Prof. Development & Training

       97 EDS NC047 - Education Awards

       99 MDD NC018 - Make a Difference Day

       94 SCS NC027 - Administrative

           TOTAL

                                        Report Release

This report is intended for the information and use of the Office of Inspector General, management
of the Corporation for National and Community Service, the North Carolina Commission on
volunteerism and Community Service, and its subrecipients, and the U.S. Congress. However, this
report is a matter of public record and its distribution is not limited.
                        L E O N A R D G. BIRNBAUM                  AND      COMPANY, LLP
                                         CERTIFIED PUBLIC ACCOUNTANTS
                                                   WASHINGTON OFFICE

                                                  6285 FRANCONIA ROAD
                                                ALEXANDRIA, VA 22310-2510


                                                       (703)922-7622
                                                    FAX: (703)922-8256
LESLIE A. LEIPER                                                                                            WASHINGTON, D.C.

LEONARD G. BIRNBAUM                                                                                      SUMMIT. NEW JERSEY

DAVID SAKOFS                                                                                         REDWOOD CITY, CALIFORNIA

CAROL A. SCHNEIDER
DORA M. CLARKE




      Inspector General
      Corporation for National and Community Service

                                  INDEPENDENT AUDITOR'S REPORT

      We have audited the costs incurred by the North Carolina Commission on Volunteerism and
      Community Service (Commission) for the award numbers listed below. These costs, as presented
      in the Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs
      (Exhibits A through D), are the responsibility of the Commission's management. Our responsibility
      is to express an opinion on the consolidated Schedule of Award Costs and Exhibits A through D
      based on our audit.

        Program              Award Number                    Award Period                     Audit Period
      AmeriCorps             94ASCNC034                    1/1/94 to 12/17/00               1/1/94 to 9/30/00
      Learn & Serve          94LCSNC0 10                   911194 to 12131/00               9/1/94 to 9/30/00
      PDAT                   95PDSNC027                    1/1/95 to 12/31/00               1/1/95 to 9/30/00
      Administration         94SCSNC027                    1/1/94 to 12/31/00               111/94 to 9130100

      We conducted our audit in accordance with auditing standards generally accepted in the United
      States of America and Government Auditing Standards (1994 Revision), issued by the Comptroller
      General of the United States. Those standards require that we plan and perform the audit to obtain
      reasonable assurance about whether the financial schedules are free of material misstatement. An
      audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the
      financial schedules. An audit also includes assessing the accounting principles used and significant
      management estimates, as well as evaluating the overall financial schedule presentation. We believe
      our audit provides a reasonable basis for our opinion.

      During the course of our audit examinations, we encountered situations at the Commission's office,
      and various subrecipient locations such as North Carolina State University, UNC - Chapel Hill, UNC
      - Greensboro (Child Care Corps), N.C. Low Income Housing and the Catabwa Valley Area Girl
      Scouts, where supporting source documentation for transactions totaling $370,360 was destroyed




                            MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
or otherwise could not be located. Accordingly, the results of our examination are qualified to the
extent that the absence of such supporting records limited our audit and may have impacted the
overall audit results had such documentation been available.

In our opinion, except for the omission of the supporting source documentation discussed above and
$614,235 in questioned costs, the Consolidated Schedule of Award Costs and the grant-specific
Schedules of Award Costs (Exhibits A through D and related Schedules) referred to above present
fairly, in all material respects, the costs claimed for the period January 1, 1994 to September 30,
2000, in conformity with generally accepted accounting standards in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report, dated June 18,
2001, on Compliance and on Internal Controls over financial reporting.

This report is intended for the information and use of the Corporation for National and Community
Service's Office of Inspector General, management of the Corporation for National and Community
Service, the North Carolina Commission on Volunteerism and Community Service and its
subrecipients, and the U.S. Congress. However, this report is a matter of public record and its
distribution is not limited.

                                           2-       1 .A                 Tm,
                                             Leonard G. Birnbaum and Comphny



Alexandria, Virginia
June 18,2001
          North Carolina Commission on Volunteerism and Community Service
                         Consolidated Schedule of Award Costs

Corporation for National and Community Service Awards



                                                                            Questioned
                                 Approved       Claimed       Questioned    Education
Award Number     Program          Budget         Costs          Costs        Awards      Reference

94ASCNC034     AmeriCorps        $12,726,115   $1 1,198,755   $ 368,lO 1    $   42,525   Exhibit A

94LCSNC0 10    Learn and Serve      989,474       795,627        90,636            -     Exhibit B

95PDSNC027     PDAT                 672,07 1       554,77 1        (8 16)          -     Exhibit C

94SCSNC027     Administration      1,882,686     1,802,069       113,789           -     Exhibit D

Total
            North Carolina Commission on Volunteerism and Community Service
                      Notes to Consolidated Schedule of Award Costs


1. Summary of Significant Accounting Policies

Reporting Entity

The accompanying consolidated Schedule of Award Costs includes amounts budgeted, claimed, and
questioned under ArneriCorps, Administrative, Learn and Serve, and Program Development and
Training grants awarded to Learn and Serve by the Corporation for National and Community Service
for the period from January 1, 1994 to September 30,2000.

The Commission awards its AmeriCorps grant funds to numerous subgrantees that administer the
AmeriCorps program and report financial and programmatic results to the Commission.

Basis of Accounting

The accompanying Schedule has been prepared to comply with the Provisions of the grant
agreements between the Corporation and the Commission. The information presented in the
Schedule has been prepared fiom the reports submitted by the Commission to the Corporation. The
basis of accounting used in preparation of these reports differs slightly from accounting principles
generally accepted in the United States of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in the
Schedule of Award Costs include the cost of equipment purchased during the period rather than a
provision for depreciation. The equipment acquired is owned by NCSC while used in the program
for which it was purchased or in other future authorized programs. However, the Corporation has
a reversionary interest in the equipment. Its disposition, as well as the ownership of any proceeds
therefore, is subject to Federal regulations.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.

Questioned Costs

Questioned costs are costs for which there is documentation that the recorded costs were expended
in violation of the law, regulations or specific conditions of the awards, or those costs which require
additional support by the grantee or which require interpretation of allowability by the Corporation.
                                                                                      Exhibit A
                                                                                     Page 1 of 2

             North Carolina Commission on Volunteerism and Community Service
                                  Schedule of Award Costs
                      Corporation for National and Community Sewice
                        Award Number 94ASCNC034 (AmeriCorps)
                            January 1,1994 to September 30,2000

                                                               Questioned
                                    Claimed      Questioned    Education
                                     Costs         Cost         Awards           Reference

North Carolina State University   $ 1,284,669    $   232,239   $    14,175      Schedule A-1

North Carolina Low Income
    Housing Coalition                782,440          97,657       23,625       Schedule A-2

University of North Carolina -
    Chapel Hill                      774,469          22,507         4,725      Schedule A-3

University of North Carolina -
    Greensboro
        ACCESS Program              1,05 1,009         2,617            0       Schedule A-4
        Child Care Corps              938,204         13,081            0       Schedule A-5

Day Care Services Association        704,049              0                 0     Note 2

Habitat for Humanity                 606,985              0                       Note 2

Subtotal                            6,141,825        368,101        42,525
Other                               5,056,930              0             0         Note 3

Total                             $11,198,755    $   368,101   $    42,525

Approved Budget                   $12,726.1 15                                     Note 1
                                                                                        Exhibit A
                                                                                       Page 2 of 2

          North Carolina Commission on Volunteerism and Community Service
                               Schedule of Award Costs
                   Corporation for National and Community Service
                      Award Number 94ASCNC034 (AmeriCorps)
                         January 1,1994 to September 30,2000

Notes

   1. As discussed in the Independent Auditor's Report on Compliance and on Internal Controls
      Over Financial Reporting, the Commission did not track expenditures by budget line item.
      Accordingly, neither this Exhibit nor the accompanying Schedules present claimed costs by
      budget line item.

   2. Based on our review of workpapers prepared by the independent auditors of these
      subrecipients, in the performance of audits under Office of Management and Budget Circular
      A-133, "Audits of States, Local Governments and Non-Profit Organizations," we concluded
      that further audit of these subrecipients was not necessary and we relied on them for purposes
      of this audit.

   3. During the period covered by our audit, the Commission had between 9 and 14 subrecipients
      and between 18 and 110 second-tier subrecipients. Accordingly, we used a sampling
      approach to test the claimed costs. The claimed costs reported include costs claimed by
      subrecipients that were not tested as part of this audit.
                                                                                   Schedule A-l
                                                                                     Page 1 of 2

          North Carolina Commission on Volunteerism and Community Service
                               Schedule of Award Costs
                   Corporation for National and Community Service
                            Award Number 94ASCNC034
                         January 1,1994 to September 30,2000

                              North Carolina State University

                                                                                    Reference
Approved Budget (Federal funds)

Claimed Costs

Questioned Costs
   Wayne County                                                                     Note 1
   Member Living Allowances - Overpayments                                          Note 2
   Member Living Allowance - Lack of
       Eligibility Documentation                                                    Note 3
   Administrative Costs                                                             Note 4
Total Questioned Costs

Questioned Education Awards                                                          Note 3

Notes

   1. The entire amount paid by the University (net of refunds) to one of its subrecipients, Wayne
      County, is questioned as unsupported, since the County was unable to provide any
      supporting source documentation, as further described in Finding No. 17 in our report on
      compliance and internal controls over financial reporting ($193,113). Within the unsupported
      total above, there are living allowance overpayments to Wayne County that would be
      unallowable even if the supporting documentation were available. These unallowable
      overpayments (Questioned Costs), which are included in the $193,113, total $12,703.
      Subsequent to our review, North Carolina State University representatives indicated that
      some payroll records had been located. However, we were unable to validate these assertions
      back to grant charges during our audit.

        Commission's Response

        The Commission disagrees with the questioned cost stating that NC State University
        submitted a final FSR covering the costs incurred.
                                                                                 Schedule A-1
                                                                                   Page 2 of 2

       North Carolina Commission on Volunteerism and Community Service
                            Schedule of Award Costs
                Corporation for National and Community Service
                         Award Number 94ASCNC034
                      January 1,1994 to September 30,2000

                           North Carolina State University

   Notes (continued)

   Auditor's Comment

   First, we note that the Commission does not, in its response, state when NC State University
   filed the final FSR. Second, and more importantly, the record retention period is tolled only
   by the Commission's filing of a final FSR, and not by individual subrecipients. Accordingly,
   our position remains unchanged.

2. Separate tests of Member Living Allowance and Staff Salaries and Benefits charges to the
   University "Prime Accounts" disclosed overpayments for certain individuals. Questioned
   Living Allowances charged to University "Prime Accounts" are $749.

3. Compliance testing of AmeriCorps member files revealed that key eligibility documentation
   for 15 members was missing. The related member stipends and benefits of $28,802,
   therefore, are questioned. Education awards of $14,175 made to these members are also
   questioned.

4. Questioned administrative costs of $9,575 represent the application of the prescribed grant
   administrative rate to questioned costs included in the administrative rate base.
                                                                      Schedule A-2
                                                                          Page 1 of 3
           North Carolina Commission on Volunteerism and Community Service
                                Schedule of Award Costs
                    Corporation for National and Community Service
                             Award Number 94ASCNC034
                          January 1,1994 to September 30,2000

                       North Carolina Low Income Housing Coalition

                                                                                    Reference
Approved Budget (Federal funds)                                   $   846,832

Claimed Costs                                                         782,440

Questioned Costs
   Member Living Allowance Refund                  $     1,296                       Note 1
   Member Living Allowance- Lack of
       Eligibility Documentation                        37,853                       Note 2
   Benefits                                              8,153                       Note 2
   Administrative Costs                                  6,706                       Note 3
   Unexpended Funds                                     40,975                       Note 4
   Unauthorized Funding                                  2,674                       Note 5
Total Questioned Costs                                                 97,657

Questioned Education Awards                                       $    23.625         Note 2

Notes

        The questioned amount represents refund of unexpended funds from "Land of Sky Regional
        Council" to the Coalition. These funds should have been returned to the Commission and
        the Corporation.

        Commission's Response

        The Commission disagrees with this questioned cost and that discussed in Note 4, stating
        that the overpayment has been repaid.

        Auditor's Comment

        We are unable to determine whether the overpayment has, in fact, been repaid. It had not
        been at the time of our audit.
                                                                      Schedule A-2
                                                                         Page 2 of 3
          North Carolina Commission on Volunteerism and Community Service
                               Schedule of Award Costs
                   Corporation for National and Community Service
                            Award Number 94ASCNC034
                         January 1,1994 to September 30,2000

                      North Carolina Low Income Housing Coalition


Notes (continued)

   2. Compliance testing of ArneriCorps member files revealed that key eligibility documentation
      for 7 members was missing. The related member stipends ($37,853) and benefits (8,153),
      therefore, are questioned. Education awards made to these members are also questioned.

   3. Administrative costs questioned consist of (1) costs of $5,086 charged for the 1995-96
      Program Year in excess of the 5 percent total cost ceiling, and (2) application of the
      administrative rate to the living allowance costs questioned above ($1,620).

      Commission's Res~onse

      The Commission disagrees with the $5,086 cost questioned, stating that it made a three-year
      grant to this subrecipient and that administrative costs claimed during this period was below
      the 5 percent ceiling.

      Auditor's Comment

      The assertion that a three year award was made to this subrecipient is untenable. Each year,
      a separate grant document was issued specifying the period covered. Further, the award
      made by CNCS to the Commission was also incremented annually. Accordingly, our
      position remains unchanged.

   4. Coalition records show that unexpended funds received from the Commission totaled
      $40,975. These funds should have been returned to the Commission and the Corporation.
                                                                      Schedule A-2
                                                                         Page 3 of 3
          North Carolina Commission on Volunteerism and Community Service
                               Schedule of Award Costs
                   Corporation for National and Community Service
                            Award Number 94ASCNC034
                         January 1,1994 to September 30,2000

                      North Carolina Low Income Housing Coalition


Notes (continued)

   5. The questioned amount represents North Carolina Unemployment Insurance liability at
      Coalition site locations. This cost element was neither included nor authorized in the
      original Budget Authorization Funding. Payment was made by the Commission out of
      AmeriCorps funds. This amount is not included in the grant revenues or expenditures on the
      subrecipients' project ledgers nor reported in the subrecipient's FSRs. This amount,
      however, was included in the drawdowns by the Commission from the Corporation. While
      this type of expenditure would otherwise be considered allowable if contemplated in an
      approved budget, we have questioned the entire amount, $2,674, of the Commission
      drawdown as an unauthorized payment by the Commission.

      Commission's Response

      The Commission disagrees with the questioned cost, stating that the cost would have been
      allowable if it had been included in the budget.

      Auditor's Comment

      The fact that such a cost might have been allowable, had it been included in the budget, does
      not alter the fact that the expenditure was not authorized. Accordingly, our position remains
      unchanged.
                                                                                 Schedule A-3
                                                                                   Page 1 of 2

          North Carolina Commission on Volunteerism and Community Service
                               Schedule of Award Costs
                   Corporation for National and Community Service
                            Award Number 94ASCNC034
                         January 1,1994 to September 30,2000

                         University of North Carolina, Chapel Hill

                                                                                   Reference
Approved Budget (Federal funds)                                  $   927,614

Claimed Costs

Questioned Costs
   Member Living Allowances -Overpayments          $   15,311                       Note I
   Member Living Allowance - Lack of
       Eligibility Documentation                                                    Note 2
   Benefits                                                                         Note 2
       FICA                                                                         Note 3
   Other                                                                            Note 4
   Administrative Costs                                   490                       Note 5
Total Questioned Costs                                                22,507

Questioned Education Awards                                      $      4,725        Note 2

Notes

   1. Living allowances paid exceeded those authorized by the grant. Overpayments were made
      by UNC-Chapel Hill, ($13,473,) and its subrecipient, Wesleyan College ($1,838).

   2. Compliance testing of ArneriCorps member files revealed that key eligibility documentation
      for several members was missing. The related stipends ($4,891) and benefits ($271),
      therefore, are questioned. Education awards of $4,725 made to these members are also
      questioned.

   3. FICA costs questioned are directly associated with the 1995-96 Wesleyan College living
      allowances questioned in Note 1 above. UNC-Chapel Hill FICA charges were minimal.
                                                                                    Schedule A-3
                                                                                      Page 2 of 2

          North Carolina Commission on Volunteerism and Community Service
                               Schedule of Award Costs
                   Corporation for National and Community Service
                            Award Number 94ASCNC034
                         January 1,1994 to September 30,2000

                          University of North Carolina, Chapel Hill

Notes (continued)

   4. A sample of other direct costs resulted in questioned costs of $1,521. Supporting
      documentation for $503 could not be located. A travel advance for an ArneriCorps member,
      purpose of trip unknown, of $988 was taken from the petty cash fund and never liquidated
      with actual receipts. The remaining $30 was for unallowable local lunches. University
      policy and OMB Circular A-87, "Cost Principles for State, Local and Indian Tribal
      Governments," only allow subsistence payments when on travel status.

   5. Administrative costs questioned result from the application of the annual administrative rate
      used by the University for the AmeriCorps grant to the applicable costs questioned in Notes
      1 to 4 above.
                                                                                    Schedule A-4

          North Carolina Commission on Volunteerism and Community Service
                               Schedule of Award Costs
                   Corporation for National and Community Service
                            Award Number 94ASCNC034
                         January 1,1994 to September 30,2000

                         University of North Carolina, Greensboro
                                     ACCESS Program

                                                                                     Reference
Approved Budget (Federal funds)                                     $1,139,610

Claimed Costs                                                          1,05 1,009

Questioned Costs
   Member Living Allowances - Overpayments          $     2,486                        Note 1
   Administrative Costs                                     131                        Note 2
Total Questioned Costs                                             $       2,617

Questioned Education Awards                                                    0

Notes

   1. The questioned amount represents payments in excess of the authorized stipend.

   2. Administrative costs questioned represent application of the University's administrative rate
      to questioned stipend overpayments.
                                                                      Schedule A-5
                                                                         Page 1 of 2
          North Carolina Commission on Volunteerism and Community Service
                               Schedule of Award Costs
                   Corporation for National and Community Service
                            Award Number 94ASCNC034
                         January 1,1994 to September 30,2000

                         University of North Carolina, Greensboro
                               Child Care Corps Program


                                                                                     Reference

Approved Budget (Federal funds)                                    $ 1,248.961

Claimed Costs                                                           938,204

Questioned Costs
   Members Living Allowance - Overpayments          $     2,297                        Note 1
   FICAIWorkers Compensation                                176                        Note 2
   Other                                                    585                        Note 3
   Administrative Costs                                  10.023                        Note 4
Total Questioned Costs                                              $    13.081

Questioned Education Awards                                                    0

Notes

   1. The amount questioned represents payments in excess of the authorized stipend.

   2. FICAIWorkers Compensation costs questioned are the amounts applicable to the questioned
      stipend overpayments.

   3. Other direct costs questioned consist of $385 for which documentation could not be located
      and $200 related to an unexplained stipend.

   4. Administrative costs questioned of $10,023 are composed of two parts. First, $8,076 is due
      to the University using an incorrect administrative rate that exceeded the maximum 5% of
      total costs. Second, $1,947 is due to the application of the allowable administrative rate to
      the questioned costs in Notes 1 through 3 above.
                                                                     Schedule A-5
                                                                        Page 2 of 2
         North Carolina Commission on Volunteerism and Community Service
                              Schedule of Award Costs
                  Corporation for National and Community Service
                           Award Number 94ASCNC034
                        January 1,1994 to September 30,2000

                         University of North Carolina, Greensboro
                                Child Care Corps Program

Notes (continued)

      Commission's Response

      The Commission disagrees with the $8,076 questioned cost, stating that administrative costs
      were budgeted to provide a six-week training course to AmeriCorps members and that while
      these costs could have been used to support administrative costs, the University chose to use
      the funds for direct training costs.

      Auditor's Comment

      The Commission's response does not address the issue nor does it dispute the fact that
      administrative costs were claimed in excess of the 5 percent ceiling. Accordingly, our
      position remains unchanged.
                                                                                       Exhibit B

          North Carolina Commission on Volunteerism and Community Service
                              Schedule of Award Costs
                   Corporation for National and Community Service
                   Award Number 94LCSNC010 (Learn and Serve)
                       September 1,1994 to September 30,2000

                                                                                     Reference
Approved Budget (Federal Funds)                                     $ 989,474

Claimed Costs                                                           795,627

Questioned Costs
   Catawba Valley Girl Scouts                       $    89,372                    Schedule B-1
   Western Carolina Center for
     Volunteer Services                                   3.123                    Schedule B-2
Total Questioned Costs                                                   92,495

Reclassifications                                                        (1,859)      Note 1

Net Questioned Costs                                                $    90,636



    1. This amount consists of $1,249 of computer acquisition costs erroneously charged to the
       Administrative grant rather than the Learn and Serve grant, and $610 of charges for a 4-H
       program activity also erroneously charged to the Administrative grant rather than the Learn
       and Serve grant.
                                                                       Schedule B-1
                                                                          Page 1 of 2
           North Carolina Commission on Volunteerism and Community Service
                               Schedule of Award Costs
                    Corporation for National and Community Service
                    Award Number 94LCSNC010 (Learn and Serve)
                        September 1,1994 to September 30,2000

                                   Catawba Valley Girl Scouts

                                                                                      Reference
Approved Budget (Federal Funds)                                       $ 106.658

Claimed Costs (Drawdowns)

Questioned Costs
   Excess Drawdown                                                                     Note 1
   Unsupported Costs                                                                   Note 2
Total Questioned Costs                                                 $   89,372

Notes

   1. The questioned amount represents the excess of amounts drawn down from the Commission
      over total booked expenditures.

        Commission's Response

        The Commission disagrees with the costs questioned, stating that these funds were expended
        for the purchase of equipment to implement the Learn and Serve program, but listed under
        another account.

        Auditor's Comment

        We are unable to determine, at this point, whether this assertion is valid.

   2. Source documentation supporting expenditures prior to calendar year 1998 were destroyed.
      Consequently, the entire amount booked prior to 1998 is questioned.

        Commission's Response

        The Commission disagrees with the questioned cost stating that this subrecipient submitted
        a final FSR covering the costs incurred.
                                                                     Schedule B-1
                                                                        Page 2 of 2
         North Carolina Commission on Volunteerism and Community Service
                             Schedule of Award Costs
                  Corporation for National and Community Service
                  Award Number 94LCSNC010 (Learn and Serve)
                      September 1,1994 to September 30,2000

                                 Catawba Valley Girl Scouts

Notes (continued)

      Auditor's Comment

      First, we note that the Commission does not, in its response, state when the subrecipient filed
      the final FSR. Second, and more importantly, the record retention period is tolled only by
      the Commission's filing of a final FSR, and not by individual subrecipients. Accordingly,
      our position remains unchanged.
                                                                                  Schedule B-2

         North Carolina Commission on Volunteerism and Community Service
                             Schedule of Award Costs
                  Corporation for National and Community Service
                  Award Number 94LCSNC010 (Learn and Serve)
                      September 1,1994 to September 30,2000

                     Western Carolina Center for Volunteer Services

                                                                                   Reference
Approved Budget (Federal Funds)                                   $   102,550

Claimed Costs (Drawdowns)                                              91,550

Questioned Costs
   Excess Drawdown                                                $      3,123       Note 1




   1. The questioned amount represents the excess of amounts drawn down from the Commission
      over total booked expenditures.

      Commission's Response

      The Commission disagrees with the questioned costs, stating that the funds were used to
      support the implementation of the Learn and Serve program, and that the request from the
      subrecipient to redirect these funds was verbally approved by Commission staff.

      Auditor's Comment

      The Commission has not explained why the cost associated with this "redirection" of funds
      does not appear on the subrecipient's records for the Learn and Serve program. Accordingly,
      our position remains unchanged.
                                                                                    Exhibit C

          North Carolina Commission on Volunteerism and Community Service
                               Schedule of Award Costs
                   Corporation for National and Community Service
                         Award Number 95PDSNC027 (PDAT)
                         January 1,1995 to September 30,2000

                                                                                  Reference
Approved Budget (Federal Funds)                                  $   672.071

Claimed Costs                                                        554,77 1

Questioned Costs (Unsupported)                                           43 3       Note I

Reclassifications                                                      (1,249)      Note 2

Total Questioned Costs

Notes

    1. The questioned amount represents costs for which supporting documentation could not be
       located.

   2. This amount represents the acquisition cost of a computer erroneously charged to the
      Administrative grant rather than the PDAT grant.
                                                                          Exhibit D
                                                                         Page 1 of 3
          North Carolina Commission On Volunteerism and Community Service
                              Schedule of Award Costs
                           Corporation For National Service
                 Award Number 94 SCS NC 027 (ADMINISTRATION)
                      From January 1,1994 to September 30,2000

                                                                                       Reference
Approved Budget (Federal Funds)                                      $ 1,882,686

Claimed Costs                                                            1,802,069

Questioned Costs
   Unsupported Costs                                                                     Note 1
   Other                                                                                 Note 2
   Match Shortfall                                                                       Note 3
Total Questioned Costs

Reclassifications                                                           3,743        Note 4

Net Questioned Costs                                                 $     113,789

Notes

    1. The questioned amount consists of $101,500 of costs claimed for the period January 14
       through June 30, 1994 for which records were not retained, and $186 of unsupported 1995
       travel costs.

        Commission's Response

        The Commission disagrees with the questioned costs, stating that it followed the Uniform
        Administration Requirements issued by the Corporation.

        Auditor's Comment

        While the Commission disagrees with the questioned cost, it does not dispute that the records
        were not maintained. Moreover, the Commission did not, in fact, follow the Uniform
        Administration Requirements issued by the Corporation because these require record
        retention until three years after filing of a final FSR.

   2. The questioned amount consists of an equipment purchase ($2,155) not approved by the
      Corporation, unreasonable costs of custom framing and hand drawn prints ($282),
      unreasonable hotel charge ($132), and duplicate payment for office supplies ($602).
                                             28
                                                                         Exhibit D
                                                                        Page 2 of 3
         North Carolina Commission On Volunteerism and Community Service
                             Schedule of Award Costs
                          Corporation For National Service
                Award Number 94 SCS NC 027 (ADMINISTRATION)
                     From January 1,1994 to September 30,2000

Notes (continued)

      Commission's Response

      The Commission disagrees with the $2,155 and $282 costs questioned, stating that if these
      costs were included in the budget, they would have been considered allowable. The
      Commission disagrees with the $602 questioned cost, stating that it has resolved this
      duplication of payment with the vendor. The Commission also disagrees with the $132
      questioned cost, stating that the hotel would not honor the rate established for conference
      participants.

      Auditor's Comment

      The assertion that certain costs would have been allowable had they been included in the
      grant budget is without foundation, since the Commission has no way of knowing how the
      Corporation would react to such items in a grant budget. Accordingly, our position on these
      questioned costs remains unchanged. Further, while the Commission may have resolved the
      duplication of payment, it does not dispute that a duplicate payment was, in fact, made and
      charged to the grant. Accordingly, our position on this questioned cost remains unchanged.
      Finally, we have no way, at this point, of verifying the assertion that a hotel did not honor
      a rate established for conference participants.

   3. The questioned amount relates to the period November 1, 1994 to October 3 1, 1995 during
      which total (federal and match) costs were $357,898, the maximum federal share (80%) was
      $286,3 18, but $291,507 was charged to federal fwnds. Accordingly, the difference of $5,189
      is questioned.

      Commission's Response

      The Commission does not agree that there was a match shortfall for the 1994-1995 program
      year asserting that certifications documenting contributed time were not initially included
      with other match documents. The Commission also does not agree with the calculation of
      the costs questioned due to match shortfall asserting that funds carried over from the
      previous grant period retained their lower match requirement percentage.
                                                                          Exhibit D
                                                                         Page 3 of 3
          North Carolina Commission On Volunteerism and Community Service
                              Schedule of Award Costs
                           Corporation For National Service
                 Award Number 94 SCS NC 027 (ADMINISTRATION)
                      From January 1,1994 to September 30,2000

Notes (continued)

      Auditor9s Comment

      We rejected the cited certifications because they were obtained four years after the fact. As
      for the calculation of the resulting costs questioned, carryover funds are simply a source of
      amounts necessary to fund a later period; the match requirements for the period are
      unaffected by the source of the funds. Accordingly, our position on this finding remains
      unchanged.

   4. This amount consists of an incorrect charge for Community Service Conference (Points of
      Light), reclassified to the Governor's Initiative grant ($635); an incorrect charge for 4-H
      Program, reclassified to the Learn and Serve grant (Exhibit B) ($610); an incorrect charge
      for acquisition of a computer, reclassified to the PDAT grant (Exhibit C) ($1,249); and a
      similar incorrect computer acquisition, reclassified to the Learn and Serve grant (Exhibit B)
      ($1,249).
                        LEONARD G . BIRNBAUM                         AND     COMPANY, LLP
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                 ALEXANDRIA, VA 22310-2510


                                                       (703) 922-7622
                                                     FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                              WASHINGTON. D.C.
LEONARD G. BIRNBAUM                                                                                      SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                                         REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




      Inspector General
      Corporation for National and Community Service

          INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
                      CONTROLS OVER FINANCIAL REPORTING

      We have audited the Schedules of Award Costs, as presented in Exhibits A through D, that
      summarize the claimed costs of the North Carolina Commission on Volunteerism and Community
      Service under the Corporation awards listed below, and have issued our report thereon dated June
      18,2001.

        Program              Award Number                   Award Period                   Audit Period
      ArneriCorps            94ASCNC034                   1/1/94 to 12/17/00             1/1/94 to 9/30/00
      Learn & Serve          94LCSNCO10                   9/ 1/94 to 12131100            9/1/94 to 9/30/00
      PDAT                   95PDSNC027                   1/1/95 to 12/31/00             1/1/95 to 9/30/00
      Administration         94SCSNC027                   1/1/94 to 12/31/00             1/ 1/94 to 9130100

      We conducted our audit in accordance with auditing standards generally accepted in the United
      States of America and Government Auditing Standards (1994 Revision), issued by the Comptroller
      General of the United States. Those standards require that we plan and perform the audit to obtain
      reasonable assurance about whether the financial schedules are free of material misstatement.

      Compliance

      Compliance with laws, regulations, and the provisions of the awards is the responsibility of the
      Commission's management. As part of obtaining reasonable assurance about whether the financial
      schedules are free of material misstatement, we performed tests of compliance with certain
      provisions of laws, regulations, and the terms and conditions of the awards. However, our objective
      was not to provide an opinion on overall compliance with such provisions.

      Instances of noncompliance are failures to follow requirements, or violations of prohibitions,
      contained in statutes, regulations, and the award provisions.




                            MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
Compliance Findin~s

The results of our tests of compliance disclosed the following instances of noncompliance:

Finding No. 1

Condition

The Commission did not submit Financial Status Reports (FSRs) for Administrative, AmeriCorps,
Learn & Serve, Professional Development and Training, and the Governor's Initiative grants on a
timely basis as stipulated in the respective CNS grants' provisions (76% late). In addition, 7 FSRs
were not submitted at all.


                                                                                          Ratio Late
                                                   Not         Submitted                   To Total
                                                 Submitted        Late       On Time      Submitted
       94ASC NC034 - AmeriCorps                     1             14            4           78%
       94LCS NC010 - Learn & Serve                  1             12            6           67%
       94SCS NC027 - Administrative                 2             18             5          78%
       95PDS NC027 - PDAT                           2             16             3          84%
       99ASH NC034 - Governor's Initiative            1            0             1            0%
         Totals                                       7           60             19          76%

This condition's cause appears to be that the Commission's financial management process did not
suitably emphasize the need for timely gathering of the information necessary to prepare FSRs.

The Corporation has established due dates for FSRs for each program for each year. We prepared
a schedule of due dates for each program and matched these due dates with actual FSR submission
dates in arriving at the results shown above.

This condition results in a violation of the grant's terms and conditions and might result in, or fail
to disclose on a timely basis, potential funding misapplications. Problems can occur because both
the grantor and grantee lack current financial information to include in management decision-
making.

Recommendation

We recommend that the Commission establish policies and procedures to ensure that FSRs are
submitted on a timely basis and are properly completed prior to submission.
Commission's Response

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to ensure that FSRs are submitted on a timely basis. The Commission also states
that the unpublished policy was codified as Policy #F1S-08 of Section 9 (Fiscal Management) in the
Commission's Policies and Procedures Manual on December 10,2001.

Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate.

Finding No. 2

Condition

The Commission did not submit Federal Cash Transactions Reports (FCTRs) on a timely basis. Our
review disclosed that 6 out of 21 reports tested were submitted after the due dates.

The reporting controls and procedures utilized apparently did not suitably emphasize the significance
of timely and accurate cash management.

Due dates of the Federal Cash Transactions Reports are established by the Department of Health and
Human Services. FCTRs are usually due 45 days after the end of the quarter.

The effect of this condition is that federal cash accountability controls are weakened when FCTRs
are not submitted timely. To ensure funds are being spent for the grant's purpose and conditions,
a timely accounting is necessary. When accounting controls are weak, it becomes easier to
circumvent the established processes.

Recommendation

We recommend that the Commission establish policies and procedures to ensure that FCTRs are
submitted on a timely basis.

Commission's Response

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to ensure that FCTRs are submitted on a timely basis. The Commission also
states that the unpublished policy was codified as Policy #F1S-06 of Section 9 (Fiscal Management)
in the Commission's Policies and Procedures Manual on December 10,2001.
Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate.

Findin~No. 3

Condition

Corporation approval for the 1995 purchase of equipment, a camcorder costing $2,155, was not
obtained by the Commission in violation of Americorps Provisions.

Equipment purchases over $500, not included in the approved budget, required the Corporation's
prior written approval according to the AmeriCorps Provision No.19 - "Equipment Costs". The
Commission could not provide any documentation of such prior approval and the approved budget
did not include the camcorder purchase.

The Commission did not adhere to this provision and neither the Governor's Office
Budget/Accounting Department, nor the Commission detected the violation.

Without the Corporation's knowledge, funds were spent for an objective that may not be considered
necessary to meet the grant's purpose and conditions.

Recommendation

We recommend that the Commission establish controls to ensure that all required purchase approvals
are obtained prior to initiating the procurement action.

Commission's Res~onse

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to ensure that all required approvals are obtained prior to initiating the
procurement action. The Commission also states that the unpublished policy was codified as Policy
#F1S-13 of Section 9 (Fiscal Management) in the commission's Policies and Procedures Manual on
December 10, 2001. The Commission disagrees with the related questioned costs of $2,155
asserting that the purchase would have been allowable if it was included in the budget.
Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate. With respect
to the questioned costs, again, the Commission does not dispute the point that it did not obtain the
required approval. Accordingly, our position remains unchanged.

Finding: No. 4

Condition

Payment of $2,674 was made to a subrecipient, North Carolina Low Income Housing Coalition
(NCLIHC), for site unemployment insurance without documented written approval.

During grant performance, it was determined that NCLIHC site locations would incur a liability for
state unemployment insurance that was not contemplated in the original budget submission. The
payment was made by the Commission out of ArneriCorps funds but the formal approval process
was not utilized.

The AmeriCorps Provision - "Responsibility For Administering the Grant", requires the
Commission to act in a judicious and reasonable manner in expending grant funds.

Grant funds were used for expenses not included in the approved budget. In addition, the transaction
was not documented and properly accounted. Although the expenses appear to be legitimate, both
parties circumvented appropriate controls. This expense was not included in Commission
AmeriCorps accounting records until a complete reconciliation was completed. The NCLIHC
accounting records did not record this transaction in their grant accounting records.

Recommendation

We recommend that the Commission establish procedures to ensure that formal approval
requirements are obtained on a timely basis.

Commission's Response

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to ensure that formal approval requirements are obtained on a timely basis. The
Commission also states that the unpublished policy was codified as Policy #F1 S-01 of Section 9
(Fiscal Management) in the Commission's Policies and Procedures Manual on December 10,2001.
The Commission disagrees with the related questioned cost of $2,764 asserting that the cost would
have been allowable if it was included in the grant budget.
Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate. With respect
to the questioned cost, again, the Commission does not dispute that it did not obtain the required
approval. Accordingly, our position remains unchanged.

Finding No. 5

Condition

The following subrecipients did not submit FSRs on a timely basis:

                                                      Not                                 Ratio Late
                                                   Submitted/    Submitted                 To Total
                                                    Missing                   On Time     Submitted
 AmeriCorps:
   North Carolina State University                     4             6            7          46%
   North Carolina Low Income Housing Coalition         5             3            3          50%
   UNC - Chapel Hill                                   3             9            3          75%
   UNC - Greensboro, Child Care Corps Program          0             9            8          53%
   UNC - Greensboro, ACCESS Program                    2             3            8          27%
 Learn & Serve:
   Catawba Valley Area Girl Scouts                     11            6             1         86%
   Western Carolina Center                              4            5            14         26%
         Totals                                        29            41           44         48%

This condition's cause may be that the Commission's indoctrination and oversight processes did not
adequately stress to subrecipients the importance of preparing and submitting correct and timely
FSRs.

OMB Circulars A-102 and A-1 10, as well as AmeriCorps Provision No. 17 - "Reporting
Requirements", provide for the submission of quarterly FSRs. The Commission also established
annual subrecipient FSR due dates in order to provide the time necessary to prepare aggregate
Commission FSRs and meet the Corporation's FSR due date schedule. We compared the
subrecipient due dates with subrecipient submission dates to arrive at the above schedule.

This timeliness condition resulted in a violation of the subgrant's terms and conditions and potential
funding misapplications. Problems can occur because both the grantee and subgrantee do not have
current financial information to include in management decision-making.
Recommendation

We recommend that the Commission establish and implement procedures to ensure that its
subrecipients (a) complete FSRs properly prior to submission, (b) submit them on a timely basis, and
(c) retain the appropriate supporting documentation.

Commission's Response

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to ensure that its subrecipients (a) complete FSRs properly prior to submission,
(b) submit them on a timely basis, and (c) retain the appropriate supporting documentation. The
Commission also states that the unpublished policy was codified as Policy #FlS-10 of Section 9
(Fiscal Management) in the Commission's Policies and Procedures Manual on December 10,2001.

Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate.

Finding No. 6

Condition

Grant authorized living allowance payments to ArneriCorps members were exceeded by the
following subrecipients, in the amounts indicated:

      North Carolina State University, SOS Program                    $    749
      University of North Carolina-CH, SCALE Program                  $ 15,333
      University of North Carolina-G, CCC Program                     $ 2,473
      University of North Carolina-G, ACCESS Program                  $ 2,486

Although the above universities cited a number of causes for overpayments, the root cause is that
Commission guidance to, and oversight of, subrecipients did not provide complete and thorough
instruction on living allowance payments.

The ArneriCorps Provision - "Living Allowances, Other In-Service Benefits and Taxes" requires that
member living allowances be paid in increments, not as an hourly wage. It also limits the
Corporation's payment of full-time member living allowances to 85% of the minimum living
allowance. Subrecipients must use a cash match for the remaining 15%.

Our testing identified living allowance overpayments totaling $2 1,041 as a result of this condition.
Recommendation

We recommend that the Commission establish oversight policies and procedures to ensure that its
subrecipients comply with ceiling limitations for AmeriCorps member Living Allowances included
in drawdown payment requests. We note that the Commission has developed a new monitoring
instrument covering this area, that is intended to be used for all subgrantee visits after December
2000.

Commission's Res~onse

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to ensure that its subrecipients comply with ceiling limitations for AmeriCorps
member living allowances included in drawdown payment requests. The Commission also states
that the unpublished policy was codified as Policy #F1S-02 of Section 9 (Fiscal Management) in the
Commission's Policies and Procedures Manual on December 10,2001.

Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate.

Finding No. 7

Condition

Under the provisions of Public Law 100-679, North Carolina State University is subject to Cost
Accounting Standards for Educational Institutions. It is not in compliance with Cost Accounting
Standard 9905.501, Consistency in Estimating, Accumulating and Reporting Costs by Educational
Institutions, that requires each educational institution's practices used in estimating costs for a
proposal to be consistent with cost accounting practices used by the institution in accumulating and
reporting costs.

Budget estimates and related fbnding were predicated on the traditional budget line item categories
associated with AmeriCorps grants. Accounting for grants' expenditures was performed on the basis
of the University's standard chart of accounts and financial systems structure. Consequently, the
University was unable to compare estimated costs to actual costs by budget line item.

Recommendation

We recommend that the Commission establish oversight policies and procedures to ensure
consistency in its subrecipients' estimating, accounting and reporting practices for AmeriCorps
                                                38
grants.

Commission's Response

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to ensure consistency in its subrecipients' estimating, accounting and reporting
practices for AmeriCorps grants. The Commission also states that the unpublished policy was
codified as Policy #F 1S-04 of Section 9 (Fiscal Management) in the Commission's Policies and
Procedures Manual on December 10,2001.

Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate.

Finding No. 8

Condition

An AmeriCorps member with the University of North Carolina - Chapel Hill, SCALE Program,
performed various fund raising activities and clerical work prohibited by the ArneriCorps Provisions.

This condition's cause may be varied, including:

          (a)   a lack of adequate supervision over the member's activities,
          (b)   inappropriate direction from the supervisor, or
          (c)   lack of training or understanding on the part of all parties on the prohibitions
                imposed by the AmeriCorps grant on certain types of activities.

All AmeriCorps members and program supervisors should be trained and fully conversant with the
restrictions incorporated in the grant terms. The AmeriCorps Provision - "Fund Raising" states, in
part "A member's service activities may not include organized h d raising, solicitation of gifts and
bequests, and similar activities." The AmeriCorps Provision - "Training, Supervision and Support"
also states, in part " . .. Member activities may not include clerical work, research or fund raising
activities. ..."

Recommendation

We recommend that the Commission reemphasize these prohibitions to all subrecipients and monitor
the activities of the members during its program site visits.
Commission's Response

The Commission states that it understands the importance of re-emphasizing prohibited activities
to all subrecipients and monitoring members during site visits. The Commission has implemented
a member and site supervisor questionnaire to be administered during site visits. The questionnaire
goes over each prohibited activity to ensure that members are not engaging in, and that site
supervisors are aware of, prohibited activities. In addition, prohibited activities are carefully
outlined in the solicitation package given to potential applicants, pre-application training and
technical assistance session, pre-award site visits, subsequent start-up training and additional
communications, as needed.

Auditor's Comment

The Commission's does not dispute the accuracy of the cited conditions. Assuming the Commission
appropriately and effectively implements the questionnaire as it pertains to prohibited activities, the
Commission's response is considered adequate.

Finding No. 9

Condition

For the 1994-95 program year, the Commission did not meet the matching requirements of the
Administrative grant.

The Commission did not have procedures in place to monitor its required matching costs
commitment during this program year. Policies and procedures should provide for monitoring of
required and actual matching costs during grant performance periods.

This condition resulted in shortfall of $1,747 in required Administrative grant matching costs for the
1994-95 program year.

Recommendation

We recommend that the Commission establish policies and procedures to monitor its matching
requirements throughout performance periods and take any necessary action to attempt to meet its
annual requirements before completion of the period.

Commission's Response

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to monitor its matching requirements throughout performance periods and take
any necessary action to attempt to meet its annual requirements before completion of the period. The
Commission also states that the unpublished policy was codified as Policy #F1 S-11 of Section 9
(Fiscal Management) in the Commission's Policies and Procedures Manual on December 10,2001.


The Commission does not agree that there was a match shortfall of $1,747 for the 1994-1995
program year asserting that certifications documenting contributed time were not initially included
with other match documents. The Commission also does not agree with the calculation of the costs
questioned due to match shortfall asserting that funds carried over from the previous grant period
retained their lower match requirement percentage.

Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate. We rejected
the cited certifications because they were obtained four years after the fact. As for the calculation
of the resulting costs questioned, carryover funds are simply a source of amounts necessary to fund
a later period; the match requirements for the period are unaffected by the source of the funds.
Accordingly, our position on this finding remains unchanged.

Internal Controls Over Financial Reporting

In planning and performing our audit of awards costs as presented in Exhibits A through D for the
period January 1, 1994 to September 30,2000, we considered the Commission's internal controls
in order to determine our auditing procedures for the purpose of expressing our opinion on the
financial schedules and not to provide assurance on the internal controls over financial reporting.

The Commission's management is responsible for establishing and maintaining internal controls.
In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs on internal control policies and procedures. The objective of
internal controls is to provide management with reasonable, but not absolute, assurance that assets
are safeguarded against loss from unauthorized use or disposition, and that transactions are executed
in accordance with management's authorization and recorded properly to permit the preparation of
the financial schedules in accordance with generally accepted accounting principles of the United
States of America. Because of inherent limitations in any internal controls, errors or irregularities
may nevertheless occur and not be detected. Also, projection of any evaluation of the internal
controls to future periods is subject to the risk that procedures may become inadequate because of
changes in conditions or that the effectiveness of the design and operation of policies and procedures
may deteriorate.

Our consideration of internal control would not necessarily disclose all matters of internal control
over financial reporting that might be reportable conditions. Under standards established by the
American Institute of Certified Public Accountants, reportable conditions involve matters coming
to our attention relating to significant deficiencies in the design or operation of the internal controls,
                                                   41
that, in our judgment, could adversely affect the entity's ability to record, possess, summarize and
report financial data consistent with the assertions of management in the financial schedules.
Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that errors or
irregularities in amounts, which would be material in relation to the financial schedules being
audited, may occur and not be detected within a timely period by employees in the normal course
of performing their assigned functions.

Internal Control Findings

We noted the following matters which we consider to be reportable conditions:

Finding No. 10

Condition

The Commission did not track expenditures by budget line item as stipulated in various Corporation
grant provisions. Consequently, we were unable to align the Commission's bookedfclaimed amounts
to specific CNS Program Budget line items in most cases. AmeriCorps' General Provisions include
"Financial Management Provisions" that state " .. . This (Financial Management) system must be
able to identify costs by programmatic year and by budget line item." Learn & Serve Provisions
have the same requirement.

The Governor's Office accounting system provided for budgeted figures at the account level. The
effect of this condition was that, for most grants, the Commission was unable to perform a
comparison of actual expenditures to budget line item. It is very difficult to control costs if
management is unaware of how expenditures compare with the budget.

For AmeriCorps, the Program Director has established a worksheet showing the subgrantee budgeted
funds and actual expenditures by line item. However, this analysis was done only for the most recent
AmeriCorps awards and was not a part of the Commission's Financial Management System. In
addition, the subgrantee's Request for Payment Form included a "Budget Request Worksheet" that
showed budget line items and expenditures of federal funds and grantee matching. In spite of this
information being available for subgrants, the Commission's Financial Management System is not
configured to supply a comparison of actual expenditures to budget line item. On grants without
subgrantees, such as PDAT and Administration, there was no budget line item comparison with
expenditures available.

Recommendation

We recommend that the Commission establish policies, procedures and accounting practices within
its current recordation systems to utilize the respective grants' appropriation codes and budget line
items for tracking the funded and expended amounts by grant, program year and budget line item.
Commission's Response

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to utilize grant appropriation codes and budget line items for tracking the funded
and expended amounts by grant, program year and budget line item. The Commission also states
that the unpublished policy was codified as Policy #F1S-03 of Section 9 (Fiscal Management) in the
Commission's Policies and Procedures Manual on December 10,2001.

Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate.

Finding No. 11

Condition

The Commission was unable to track matching requirements on CNS grants to actual matching
expenditures as required by Corporation Provisions.

The Governor's Office's accounting system did not record matching budgets or matching
expenditures. To ensure matching requirements were met separate records were maintained for the
Administrative, AmeriCorps, and Learn & Serve grants. We identified no Commission effort to
configure its accounting system to record matching budget and matching expenditure amounts.

The AmeriCorps Provision on "Matching Requirements", states " ... The grantee must provide and
account for the matching funds as agreed upon in the approved application and budget.. .."

As a result of these conditions, the Commission was unable to efficiently compare actual matching
expenditures to budgeted matching funds. It is difficult to ensure actual matching expenditures are
meeting the budget without readily available budget and expenditure information. The Commission
had not supplied matching information on FSRs until June 1998 for the Administrative grant; May
1999 for AmeriCorps; and July 1999 for Learn & Serve.

For AmeriCorps, the Program Director has established a worksheet showing the subgrantee matching
budgeted funds and actual matching expenditures. However, this analysis was done only for the
most recent AmeriCorps awards and it was not a part of the Commission's accounting system. In
addition, the subgrantee's Request for Payment Form included a "Budget Request Worksheet" that
showed the matching budget and matching expenditures. Although this information was available
for subgrants, the Commission's accounting system was not configured to present a comparison of
actual matching expenditures to budgeted matching funds.
Recommendation

We recommend that the Commission establish policies, procedures and accounting practices within
its accounting system to identify matching requirements by grant and to monitor progress toward
meeting such requirements at both the Commission and subrecipient levels.

Commission's Res~onse

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to identify matching requirements by grant and to monitor progress toward
meeting such requirements at both the Commission and subrecipient levels. The Commission also
states that the unpublished policy was codified as Policy #F 1S-12 of Section 9 (Fiscal Management)
in the Commission's Policies and Procedures Manual on December 10,2001.

Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate.

Finding. No. 12

Condition

Administrative grant records were destroyed for the period January 1994 to June 1994 although a
final FSR for the Administrative grant had not been submitted.

The Commission followed the normal North Carolina State record retention process resulting in the
destruction of the July 1, 1993 to June 30, 1994 fiscal year records. The records were destroyed in
the fall of 2000. The Uniform Administrative Requirements issued by the Corporation state that
financial and programmatic records must be retained for three years from the date the grantee
submits its last expenditure report (FSR). The Commission has not submitted a final FSR.

As a result, the Corporation is unable to take advantage of the grant's audit clause. The allowability,
allocability and reasonableness of these expenses cannot be verified.

Recommendation

We recommend that existing Commission record retention policies and practices be modified to
ensure consistency with the Corporation's record retention requirements.
Commission's Response

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to ensure consistency with the Corporation's record retention requirements. The
Commission also states that the unpublished policy was codified as Policy #FlS-14 of Section 9
(Fiscal Management) in the Commission's Policies and Procedures Manual on December 10,2001.

Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate.

Finding No. 13

Condition

Amounts drawn down by the Commission from HHS as reported by HHS are not readily
reconcilable to the amounts reflected on the Commission's records, because reconciliations of these
amounts were not performed.

The AmeriCorps Provision - "Payments Under the Grant" requires that advance payments be based
on actual and immediate cash needs in order to minimize federal cash on hand in accordance with
3 1 CFR Part 205. The AmeriCorps Provision - "Financial Management Provisions" requires that
the grantee maintain a financial management system that includes "sufficient internal controls."

Recommendation

We recommend that the Commission implement a process of reconciling amounts drawn down as
reported by HHS to the corresponding amounts in the Commission's records. We note that the
Commission has recently added a staff member to address this condition.

Commission's Response

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy when reconciling amounts drawn down as reported by HHS to the corresponding
amounts in the Commission's records. The Commission also states that the unpublished policy was
codified as Policy #Fl S-05 of Section 9 (Fiscal Management) in the Commission's Policies and
Procedures Manual on December 10,2001.
Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission effectively
implements its newly codified policy, its response is considered adequate.

Finding No. 14

Subrecipients did not maintain documentation as required by AmeriCorps Provisions.

(A)

Condition

The following subrecipients did not maintain required AmeriCorps member eligibility
documentation:


                                                                                  Files Lacking
                                                                                   Eligibility
                                                                                 Documentation
                                                                  No. Tested     Number Ratio

        North Carolina State University                               51            15       29%
        North Carolina Low Income Housing Coalition                   15             7       47%
        UNC - Chapel Hill                                             29
                                                                      -             -6       21%
              Totals                                                  95
                                                                      -             28
                                                                                    -        29%
                                                                                             -

This condition's cause may be that Commission guidance to, and monitoring of, subrecipients did
not suitably emphasize the importance of maintaining complete member files.

AmeriCorps Provision No. 7 - "Member Eligibility, Recruitment and Selection", requires that the
grantee maintain verifiable records that document each member's eligibility to serve. As stated
above, programmatic records must be maintained for three years from the submission date of the
final FSR.

Without complete member files, the Commission cannot verify that eligibility requirements are
being met. In order to ensure that grant funds are used for the purposes intended, it is important to
make certain that the intended target group is receiving the funding. Due to the inability to validate
member eligibility in the above cases, we questioned the living allowances and related benefits of
$79,970 for those members whose eligibility documentation could not be located. We also
questioned the corresponding Education Awards in the amount of $42,525 for those members.
0
Condition

The following subrecipients did not maintain required AmeriCorps member file documentation
regarding enrollment and end-of term:

                                                Files Lacking Form             Submitted Late
                                                No. Number                 No. Number
                               Form            Tested Missing Ratio       Tested   Late
North Carolina State University Enrollment      51       24     47%         25       5
                                End-of-Term     51       13     25%          37       12

North Carolina Low Income      Enrollment                        33%
  Housing Coalition            End-of-Term                       33%

UNC - Chapel Hill              Enrollment                        24%
                               End-of-Term                       34%

UNC - Greensboro               Enrollment                        82%
  Child Care Corps Program     End-of-Term                       27%

UNC - Greensboro               Enrollment
  ACCESS Program               End-of-Term                       -
Totals                                                           -
                                                                 38%
                                                                 -

This condition's cause may be that Commission guidance to, and oversight of, subrecipients did not
suitably emphasize of the importance of maintaining complete member files, especially in the earlier
years of performance.

The AmeriCorps Provision - "Member Records and Confidentiality", requires that the grantee
maintain verifiable records that are sufficient to establish the individual was eligible to participate
in the program and successfully completed it. The Enrollment and End-of-Term forms are used to
ensure these requirements are being met. The End-of-Term form is also used to establish an
individual's right to an education award. As stated above, programmatic records must be maintained
for three years from the submission date of the final FSR.

Without accurate start and finish information, the Corporation cannot compute accurate education
award commitments. This information is also critical for internal evaluations of the program's
success. Other uses, such as measuring the ability to attract and retain members, are also hampered
without accurate and timely enrollment and exit information.
(C)

Condition

The following subrecipients did not main1;ain required ArneriCorps member contracts:

                                                                              Files Lacking
                                                                                 Contract
                                                                No.           Documentation
                                                               Tested         Number Ratio

            North Carolina State University                      51
            North Carolina Low Income Housing Coalition          13
            UNC - Chapel Hill.                                   29
            UNC - Greensboro Child Care Corps Program            -
                                                                 22
            Totals                                               115
                                                                 -
This condition's cause may be that Commission guidance to, and oversight of, subrecipients did not
suitably emphasize the importance of maintaining complete member files.

The ArneriCorps Provision - "Training, Supervision and Support" states, in part, "The Grantee must
require that members sign contracts that stipulate the following:
        (a)    the minimum number of service hours and other requirements (as developed by the
               Program) necessary to be eligible for educational award;
        (b)    acceptable conduct;
        (c)    prohibited activities;
        (d)    requirements under the Drug-Free Workplace Act (41 U.S.C. 5701 et seq.);
        (e)    suspension and termination rules;
        (f)    the specific circumstances under which a member may be released for cause;
        (g)    the position description;
        (h)    grievance procedures."

Without signed member contracts that establish sound basic ground rules, the subgrantee and
Commission are at serious risk for potentially expensive problems. To lower this risk to an
acceptable level, member contracts must be signed, contain the stipulated provisions, and must be
maintained by the subgrantee for possible future use.
0
Condition

The following subrecipients did not document required written mid-term and end-of-term
AmeriCorps member evaluations:

                                                                                Files Lacking
                                                                                    Member
                                                                                  Evaluation
                                                                     No.       Documentation
                                             Evaluation Type       Tested     Number     Ratio

       North Carolina State University       Mid-Term              51             50        98%
                                             End-of-Term           51             50        98%
       North Carolina Low Income             Mid-Term              15             11        73%
         Housing Coalition                   End-of-Term           15             14        93%
       UNC - Chapel Hill                     Mid-Term              29             23        79%
                                             End-of-Term           29             27        93%
       UNC - Greensboro                      Mid-Term              22              4        18%
         Child Care Corps Program            End-of-Term           22
                                                                   -              22
                                                                                  -        100%
       Totals                                                      234
                                                                   -              201
                                                                                  -         86%

This condition's cause may be that Commission guidance to, and oversight of, subrecipients did not
suitably emphasize the importance of documenting AmeriCorps member evaluations.

The AmeriCorps Provision - "Training, Supervision and Support" requires written mid-term and
end-of-term evaluations of each member. The provision states, in part, "the Grantee must conduct
at least a mid-term and end-of-term written evaluation for each member's performance, focusing on
such factors as:

       a.      whether the member has completed the required number of hours;
       b.      whether the member has satisfactorily completed assignments, and
       c.      whether the member has met other performance criteria that were clearly
               communicated at the beginning of the term of service."

Evaluations provide feedback to members regarding the quality and quantity of their work. They
provide supervisors with an opportunity to give guidance, correct misunderstandings, offer praise,
share experiences, and increase confidence. Evaluations that are missed or delayed often result in
members not having a clear understanding of what they are doing right, what they can do better, and
what they should learn to improve their skills. This situation usually results in low morale.
Recommendation

We recommend that the Commission reemphasize the need to adhere to the documentation
requirements of AmeriCorps Provisions to its subrecipients.

Commission's Response

The Commission agrees with the importance of re-emphasizing the need for AmeriCorps
subrecipients to adhere to the documentation requirements of the AmeriCorps provisions. Currently,
the Commission requires that subrecipients maintain complete member files. The Commission is
committed to working with the three former AmeriCorps subrecipients identified in this finding for
the completion of all member files.

Auditor's Comment

The Commission's response is adequate.

Finding No. 15

Condition

Overpayments to subrecipients went undetected for long periods after completion of the grant
program. One subrecipient in the AmeriCorps program, North Carolina Low Income Housing
Coalition, held $42,271 of unexpended funds for a period exceeding three years. Two other
subrecipients in the Learn & Serve program, Catawba Girl Scout Council and the Western Carolina
Center For Volunteer Services, also have indicated overpayments open for lengthy periods.

The Commission's grant close-out process does not include a control procedure to compare total
funds expended by the subrecipient to total payments made by the Commission.

Close-out procedures at the completion of a grant should incorporate a reconciliation of claimed
expenditures as reported by the final FSR with cumulative amounts drawn down as reflected on the
Commission's records. Any indicated overpayment would be pursued for recovery.

Recommendation

We recommend that the Commission develop and implement an internal control procedure to ensure
that the total funds expended by the subrecipient are reconciled to the total funds disbursed by the
Commission to the subrecipient. We note that Commission personnel are revising the close-out
procedures.
Commission's Response

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to ensure that the total h n d s expended by the subrecipient are reconciled to the
total funds disbursed by the Commission to that subrecipient. The Commission also states that the
unpublished policy was codified as Policy #FlS-09 of Section 9 (Fiscal Management) in the
Commission's Policies and Procedures Manual on December 10,2001.

The Commission disagrees with the questioned costs of $42,271 for overpayments made to the North
Carolina Low Income Housing Coalition stating that this amount has been repaid and submitted to
the Division of Payment Management of DHHS. The Commission disagrees with the questioned
costs of $16,350 for overpayments to Catawba Valley Girl Scouts asserting that these funds were
moved from the "program supplies" line item to the fixed asset fund for equipment purchases.
Finally, the Commission disagrees with the questioned costs of $3,123 for overpayments to Western
Carolina Center asserting that the funds were expended to implement the Learn and Serve program
and that the request by Western Carolina Center to redirect these funds was verbally approved by
Commission staff.

Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission effectively
implements its newly codified policy, its response is considered adequate. At the time of the audit,
North Carolina Low Income Housing Coalition had not made any repayment to the Commission for
excess drawdown. With respect to Catawba Valley Girl Scouts and Western Carolina Center, the
Commission has not presented any evidence that these "redirected" funds were, in fact, expended
for the Learn and Serve Program or when they were expended. Accordingly, our position on these
costs questioned remains unchanged.

Finding No. 16

Condition

Subrecipients indicated a lack of understanding of the necessary financial and accounting controls
required to track and report upon grant performance. While subrecipients have financial
management systems which accommodate budgets and incurred costs, these systems have not been
adapted to meet the requirements of AmeriCorps' General Provision - "Financial Management
Provisions that states "This (Financial Management) system must be able to identify costs by
programmatic year and budget line item." This weakness may result, in part, because the application
review board does not include any individual with accounting or financial credentials.
Recommendation

We recommend that the Commission revise its grant application process to ensure that potential
subrecipients fully understand required financial controls.

Commission's Response

The Commission disagrees with the recommendation, stating that it has been following an
unpublished policy to ensure that potential subrecipients fully understand required financial controls.
The Commission also states that the unpublished policy was codified as Policy #FlS-07 of Section
9 (Fiscal Management) in the Commission's Policies and Procedures Manual on December 10,2001.

Auditor's Comment

While the Commission disagrees with the finding, it has not disputed the accuracy of the cited
condition. Accordingly, our position remains unchanged. Assuming that the Commission
effectively implements its newly codified policy, its response is considered adequate.

Finding No. 17

Condition

Subrecipients are not fully aware of all of the provisions applicable to the grant such as prohibited
activities and retention of records. In one instance, (North Carolina State University) records were
destroyed prematurely and therefore resulted in questioned costs in an amount of $193,113 due to
the absence of supporting documentation. Similarly, a Learn and Serve program subrecipient
destroyed records resulting in questioned costs of $73,022.

This results, at least in part, because the current Learn & Serve award process consists of only an
"award letter" from the Commission to the subrecipient.

Recommendation

We recommend that the Commission develop a comprehensive award document that specifically,
or by reference, identifies the program's provisions and regulations.

Commission's Response

The Commission disagrees with this finding stating that "(s)uch a document has already been put
into effect with the 2001 - 2001 (sic) Learn and Serve program year." The Commission also states
that this document details requirements/guidelines for subgrantees in the components of program
management, fiscal management, national identity, participant development, and general grant
provisions.
                                                  52
Auditor's Comment

Such a document was not made available to us during the audit. To the extent that the
requirements/guidelines are effectively implemented, the Commission's response is considered
adequate.

Findings Nos. 1 through 9 set forth in the Compliance section of the report are also considered
findings on internal control. Findings Nos. 10 through 15 are considered to be material weaknesses.
                        Follow-Up On Pre-Audit Survey Findings
                               OIG Audit Report No. 00-08
                             Pre-Award Survey Report of the
            North Carlina Commission on Volunteerism and Community Servce


Pre-Audit Survey Finding No. 1

The Commission did not maintain documentation to support the advertisement of the availability
of funds for Learn and Serve grants. Commission procedures indicate that Learn and Serve h n d s
are awarded through an open and competitive process. However, no evidence exits to document that
this process was performed. The Commission could not provide an explanation for this lack of
documentation and also did not document their reasons for failing to announce the availability of
funds during the selection process.

Current Status

The Commission currently retains documentation supporting the availability of funds and
extensively advertises the availability of funds. We consider this finding closed.

Pre-Audit Survey Finding No. 2

Some documentation was unavailable to support grant-making decisions.. .. However, out of six
applicants selected for testing, the Commission was unable to provide us with all requested
documentation related to the renewal of a Learn and Serve America subgrantee. The renewal file
for 1996 did not contain site visits or progress reports to support the renewal of the program.

Current Status

The Commission possesses documentation supporting selection decisions for all years subsequent
to 1996. We consider this finding closed.

Pre-Audit Survey Finding, No. 3

Lack of assessment of subgrantee applicants' financial systems during the selection process.. ..
Selection officials do not consider the adequacy of the applicants' financial systems during the
Commission's subgrantee selection process.. .. In addition, Commission selection procedures do not
require Commission personnel to request information from the applicants related to their financial
systems.
Current Status

The Commission has committed to amend its AmeriCorps procedures manual to include fiscal
assessments before grants are awarded to new subrecipients. We consider this finding open.

Pre-Audit Survey Finding No. 4

Lack of evidence of FSR review, including matching recalculation. Commission procedures indicate
that subgrantees' FSRs are reviewed, and that matching requirements are recalculated. However,
no documentation exists supporting that this review was performed. In addition, Commission
personnel do not compare the FSRs to the subgrantees' accounting systems or other supporting
documentation during site visits. Also, we identified one AmeriCorps FSR that was not properly
carried forward from the prior reported FSR submitted to the Corporation.

Current Status

We consider this finding open.

Pre-Audit Survey Finding No. 5

Inability to determine timeliness of receipt of FSRs.. .. The Commission does not routinely date-
stamp FSR reports from subgrantees as they are received. Thus, the Commission cannot routinely
verify whether these documents are submitted timely in compliance with the grant agreement.

Current Status

The Commission currently requires that its subrecipients submit FSRs through WBRS at least one
week before the date FSRs are due to the Corporation. Since the FSRs are submitted electronically,
the use of a date stamp is not appropriate. We consider this finding closed.

Pre-Audit Survey Finding No. 6

The Commission did not maintain all required FSRs.. .. The Commission was unable to provide us
with FSRs for the 1995 through 1998 program years for seven of the eight Learn and Serve
subgrantees tested. This lack of documentation precluded us from determining whether the North
Carolina Commission submitted FSRs for Learn and Serve grants to the Corporation in a timely
manner. In addition, we were also unable to determine the accuracy of FSRs submitted to the North
Carolina Commission by subgrantees, as well as the accuracy of FSRs submitted by the Commission
to the Corporation, due to various missing quarterly FSRs.
Current Status

The Commission is committed to ensure that all FSRs submitted by subrecipients as well as FSRs
submitted by the Commission to the Corporation are retained and available for review. We consider
this finding open.

Pre-Audit Survey Finding No. 7

The Cornrnission's evaluating and monitoring system for subgrantees needs to be improved. During
our review of monitoring folders for subgrantees, we determined that certain information was not
included. Specifically, the names of the member files reviewed, identification of member files where
exceptions were noted and procedures followed to select member files reviewed were not included.
In addition, comments included on the checklists were general in nature and prevented others or us
from re-performing procedures completed by North Carolina Commission personnel. The lack of
specific documentation prevents us from determining the adequacy of the monitoring procedures
performed by North Carolina Commission personnel.

Current Status

The Commission, while noting that it follows the Corporation's monitoring module, has proposed
that it enlist management consultants within the North Carolina Office of Budget and Management
to identify components of the current monitoring tool in need of strengthening and develop strategies
to address such areas. We consider this finding open.

Pre-Audit Survey Finding No. 8

Lack of documentation of review of OMB Circular A-133 Reports or other audit reports from
subgrantees.. .. However, the Commission does not document the review of subgrantee OMB
Circular A-133 audits or other audit reports as part of the monitoring process. Therefore, we were
not able to determine if the Commission routinely reviews these reports to determine if auditors have
identified control weaknesses or instances of non-compliance related to the AmeriCorps program.

Current Status

The Commission, while noting its compliance with the Corporation's Policies and Procedures
Manual, specifically, that section entitled "Tracking Findings of Audit Reports," has committed to
require Commission staff to attach a memorandum to the audit reports evidencing review of the
reports before they are filed. We consider this finding open.

Pre-Audit Survey Finding No. 9

Schedule of planned and actual site visit dates.. .. The Commission does not maintain a schedule
of planned and actual dates for site visits for each program year.... We were unable to find
                                                 56
Current St a E ~

Commission staff routinely prepares lists of scheduled site visits and submits them to the Executive
Director. We consider this finding closed.

This report is intended for the information and use of the Office of Inspector General, as well as the
management of the Corporation, the Commission and its subrecipients and the U.S. Congress.
However, this report is a matter of public record and its distribution is not limited.



                                                       L.eonarcl G. Birnbaum and Company \



Alexandria, Virginia
J m e 18, 2001
Response of the North Carolina Commission on Volunteerism and Community Service
                   NC COMMISSION ON VOLUNTEERISM AND COMMUNITY SERVICE
                                0312 Mail Service Center      116 West Jones Street
                                              Raleigh, NC 27699-0312
                              919-715-3470     800-820-4483       919-715-8677(fax)



                                              December 20.2001



Ms Luke S. Jordan, Inspector General
Office 3f the Inspector General
Corporation for National Senice
1301 New York Avenue. hW                                                     I

                                                                                         OFFICE OF THE
Washington, DC 205%                                                                   INYPECTQR GENERAL

Dear Ms. Jordan,

Enclosed is our response to draft OIG Audit Report Nunber 02-08 of the North Carolina Commission on
L'olunteerism and Community Sen.ice As you kno~v.the audit process began on December 11.2000 and
culminated with the exit conference on Xugas~29. 200 1

As notrd 111 the &salts in Brief sectio!~of !lie draft report. the audit questions approximatelq four percent
(4%) of the S 14.35 i 2 2 2 clalmed b) the Conlm~ssion Please note that o\er 99"o of the questioned costs
occurred f ~ o m1094 through 1997 Less dun 1 o of the questioned costs occurred f ~ o m1998-2000 It
should be expected that the o\envhehmg quest~onedcosts ~ o u l occur   d      dunng the Initla1 years of a new
frderal program under the gudancc of a nen federal agency Even though the questioned costs seem low,
please note that the Comm~asiondisagtes n ith the overwhelming majority of these findrngs

The vast majority of the funds claimed by the Conlmission were subgranted to nonprofit and government
agencies for the administration of AmeriCorps programs We appreciate the draft report noting the
improvements in recent years of the "more effecti\,e controls over the financial and programmatic
performance of it subrecipients"

On the last page of our response. you will have a cumulative listing of the items for which we are
requesting the work papers fiom the auditors. If you have questions or concerns. please fcel free to contact
me

                                                 Sincerely,              7




                                                                         -
                                                 William Lindsay
                                                 E>cecu~i\.e
                                                           Director

cc      Emerq. Ram. Chair. NC Commission
          NORTH CAROLINA COMMISSION ON VOLUNTEERISM AND COMMUNITY SERVICE
                            RESPONSE TO AUDIT FINDINGS
                              -
                              OIG AUDIT REPORT #02-08

    F I N D I N G #1
    Condition
    The Commission did not submit Financial Status Reports (FSR5) for Administrative, AmeriCorps, Learn & Serve, Professional
    Deveiopment and Training, and the Governor's Initiative Grants on a timely basis as stipulated in the respective CNS Grants'
    provisions (76% late). I n addition, 7 FSRs were not submitted at all...
    Recommendation
    We recommend that the Commission establish policies and procedures to ensure that FSRs are submitted on a timely basis
    and are properly completed prior to submission.
              Comment
    K~rnmission
     ..-
    %he Commission disagrees with the recommendation. 7he Commission has been following an unpublished policy to ensure
    that FSRs were submitted from the Commission to the Corporation for National Service (CNS) in a timely manner and
    properly completed prior to submission. On December 10, 2001, this unpublished policy was converted to writing and
    established as Policy #RS-08 of Section 9 (Fiscal Management) in the Commission's Policies and Procedures Manual. The
    Manual is available for review in the Commissicn office.


    FINDING #2
    Condition
    The Commission did not submit Feder~lCasii 7;ramactionsRepo& (FCTRs) on a timely bas%. Our review disclosed that 6
    o ~ of21
        t    repom kded were submitted affer the due d a t a ..Due dates of the Federal Cash Transactions Report& are
    %t~&k?ledby bk Cecartmer?tof Heaith and Human Service% K7Rs are usually due 45 days affer the end of the quarter.
    -Recommendati~n
     ----
    We recommend that the Cornmission establish ,cwhcies and procedures to ensure that FURS are submitted on a timely
    basis.
     :ki;~mj~sion   Cornm-ent
    -The Commission disagrees with the recommendation. The Commission has been following an unpublished policy to ensure
    that Federal Cash Transactions Reports (FCTRs) are submitted in a timely manner. On December 10, 2001, this unpublished
    ooiicy was converted io wvting and established as Policy #FIS-06 of Section 9 (Fiscal Management) in the Comm~ssion's
     Pciici.-s and Procedures Manual. The Manual is available for review in the Commission office.


    FINDING #3
    Condition
    Corporation approval h r ttle 1995purchase of equipment .. was not obtained by the Commission... Equipment purchases
    over $500, not included in the approved budget, required the Corporation'sprior written approval... 777e Commission could
    not provide any documentation of such prior approval and the approved budget did not include the... purchase.
    Recommendation
    We recommend that tbe Commission establish con&-olsto ensure that all required purchase approvals are obtainedprior to
    initiating the procurement action.
    ~'or;imission
    .- - -         Comment
    The Commission disagrees with the recommendation, m e Commission has been following an unpubiished policy to ensure
    that all required purchase approvals are obtained prior to initiating the procurement action. On December 10, 2001, this
    unpublished policy was cowerted to writing and established as Policy #FIS-13 of Section 9 (Fiscal Management) in the
    Commission's Policies and Procedures Manual. The Manual is available for review in the Commission office.

,   The Commission disagrees with the questionable cost of $2,155 (purchase of equipment) in 1995. This questioned amount
    would have been considered an allowable expense if included in the approved budget.


    FINDING #4
    Condition
    Payment..was made to a subrecipient..for site unemployment insurance without documented wrlttefl approval... 7he
    payment was made by the Commission out of AmeriCorps hnds but the formal approval process was not utilized...
    Recommendation
    We recommend that the Commission establish procedures to ensure &at formal approval requirements are obtained on a
    tlmely basts.
    'Ic;~::lission Comment
    The Commission disagrees with the recommendation. The Commission has been following an unpublished policy to ensure
    that formal approval requirements are obtained on a timely basis. On Cecember 10, 2001, this unpublished policy was
    converted to writing and established as Policy #FIS-01 of Section 9 (Fiscal Management) in the Commission's Policies and
    Procedures Manual. The manual is available for review in the Commission office.

    The Commission disagrees with the questionable cost of $2,674 associated with the North Carolina Low Income Housing
    Coalition. This questioned amount represents North Carolina Unemployment Insurance liability, which would be considered
    an allowable expense if included in the approved budget.


    FINDING #5
    Condition
    ...subrectpients did not submit Financial Status Reports on a timeiy basis...
    Recommendation
    We recmmend that the Commission establish and implement procedures to ensure that its subrecipients (a) complete FSRs
    pmper!y prior to submission, ((6) submit them on a timely basis, and (c) retain tbe appropriate supporting documentation.
    ~w>ission       Comment
    The Commission disagrees with the recommendation. The Commission has been following an mpublished policy to ensure
    that i t 5 subrecipie~tx(a) complete F5Rs properiy prior to submwon, (bj submit them on a timely basis, and (c) retain the
3   3ppropriate supporting documentation. On December 10, 700 ', this ut:published policy was converted to writing and
    estabiisiwo as Policy #FIS-10 of Section 9 (Fiscal Marlagement) in the Commission's Policies and Procedures Manual. The
    Mdnuai is available fc; revrew in the Commission office.

    Curccrtly, the Cvtnwission ir~cludesdue dates of FSRs in the subrecip~ent'scontract. FSRs are due to the Commission two
    weeks Gefort they a:e due to the Corporation. This provides the Commission an opportunity to ensure that FSRs are
    accurate and compie;ed properly prior to CNS submission. Einail reminders are sent out from the Commission to
    subrecipents on a r e y l a r basis to remind them of important due dates. In aadtt~on,WBRS sends automated reminders to
    sl~breciyients!wti$irq !tlei71of when FSRs are due.


    FINDING #6
    C:gn_dj&og
    Gmnt ai 10~   I Z &iiviiq dl10 wnce paynentc ti, AmzriCof ps membes were c vcrded
    Recommendati~
    We recommend that the Commission establish oversightpolicies andprxedures to ensure that itr.subrecipientsc o r n p ~
                                                                                                                        with
    ceiling limitatioffs fbr AmeriCorps member Living Allowances included in drawdown payment requests: We note that the
    Commission has developed a new monitoring instrument coveriry this area, that is intended to be used h r all subgrantee
    vlsits after December 2000.
    Comntission Comment
    The Commission d~sagreesw ~ t hthe recommendation. The Commission has been following an unpublished policy to ensure
    that its subrecipients comply with ceiling limitations for AmeriCorps member Living Allowances included in drawdown
    payment requests. On December 10, 2001, this unpubiished policy was converted to writing and established as Policy #FIS-
    02 of Section 9 (Fiscal Management) in the Commission's Policies and Procedures Manual, The Manual is available for
    review in the Commission office.


    FINDING #7
    Condition
    Under the provisions of Public Law 100-679, North Carolina State University is subject to Cost Accounting Standards h r
    Educational institutiofls. I t is not in compliance with Cost Accou~tingStandard 9905,501, Consistency in Estimating,
    Accumulating and Reporfing Costs by Educatioflal Insbtuttons... the Unwersily was unable to compare estimated costs to
    actual costs by budget line item.
    Recommendation
    We recommend that the Commission establish oversight policies and procedures to ensure consistency in its subrecip/'ents'
    estimating, accounting and report~ngpractices h r AmenCorps grants.
Commission Comment
The Commission disagrees with the recommendation. The Commission has been following an unpublished policy to ensure
consistency in its subrecipients' estimating, accounting and reporting practices for AmeriCorps grants. On December 10,
2001, this unpublished policy was converted to writing and established as Policv #FIS-04 of Section 9 (Fiscal Management)
in the Commission's Policies and Procedures Manual. The Manual is available for review in the Commission office.



FINDING #8
Condition
An AmeriCorps member...pefomed various hndraising activities and clerical work prohibited by the AmeriCorps Provisions...
Recommendation
We recommend that the Commission re-empnas12e these prohibjtjons to a// subrecipients and monitor activities of the
members during its program site visits.
Commission Comment
The Commission understands the importance of reemphasizing prohibited activities to all subrecipients and monitoring of
members during site visits. The Comrnission has irnpiemented a member and site supervisor questionnaire to be
administered during site visits. The questionnaire goes over each prohibited activity to ensure that members are not
partic~patingand to ensure that site supervisors are aware of prohibited activities. I n addition, prohibited activities are
carefuliy outlined in the RFP, pre-application training and technical assistance session, pre-award site visits, subrecipient
start-up training and additional communications as needed. (No new written po/icyrecommended,l


FINDING #9
Condition
For the 1994-95progmm year, the Commission did not meet the matching requirements of the Administrative grant 7he
Cum/-niwiondid not have procedures in place to .!nonitor its required matching costs cornmibnent during thfsprogram year.
Pohcies afld procedures shouid provide for rnomfc~ingof required and actual matching costs during grant performance
periceos.
Recommendation
We recommend that the Cixr?mi.~sionestablish policies and proczoures to monitor its matching requirements throughout
performance periods and take any necessary action to attempt to meet ID annual requlremen& before completion o f the
period.
Commission Comment
The Commission disagrees with the recomrnendat!on. The Commission has been following an unpublished policy to monitor
it; rnatchinq requirements throughout performance periods and take any necessary action to attempt to meet its annual
require~lentsbefore cornpietion of the period. On December 10, 20S1, this unpubiished policy was converted to writing and
established as Policy #F'IS-11 of Section 9 (Fiscal Management) in the Conmission's Policies and Procedures. Tne Manual IS
available for revien. in the Commission office.

The Commission disagrees with the assertion that matching requirements of the Administrative grant were not met for the
1994-95 program year. Finding #9 indicates an Administrative match shortfall of $1,747 for this year. Signed certifications
documenting time contributed to the administrative function of the Commission by two employees who worked at that time
in the Personnel/Payroll Office and the Budgeting/AccountingOffice in the Office of the Governor were not initially included
with other match documents. These certifications were not included in the original match calculations for the second year
as we initially felt our previously identified match was sufficient.

Also, pages 3 and 23 (Exhibit D) of the draft audit report erroneously show this match shortfall to be $5,189. A large
portion of the Administrative funds expended in program year 1994-95 was carryover dollars from the first year of the
program. For the first year of the program, administrative dollars were matched at the 15% level, while 1994-95
expenditures were matched at 20%. When calculating match percentage, carryover funds retain their identity from the year
in which they are awarded. In the case of program year 1994-95, of the $291,507 expended for administrative purposes,
$64,444 was carryover funds from first year of the program and matched at the 15% level. The remaining balance
expended was matched at the 20% level. The attached chart (Attachment "A") developed by Ms. Betsy Kelly, former CNS
Budget Officer for the Southern Cluster, documents the expenditure for the Rrst 4 program years of the administrative grant,
amount of carryover available for each year, required match percentage for each year, and the amount of match required
for each year. The total required match for the 1994-95 program year was $68,138. The match documentation for 1994-
95 program year exceeds $68,138 and is available in the Commission office. Work papers are requested.
F I N D I N G #1O
Condition
 7he Commission did not b-ack expenditures by budget line item as stpulated in various Corporation grant provisions.
 Consequently, we were unable to align the Commissiorl's booked/c/aimed amoun/nts tu specific CNS Program Budget line
items in most cases.,. For AmeriCorps, the PdrogramDirector has establ~shed  a worksheet showing tfie subgrantee budgeted
funds and actual expendiP~resby line item. ?-towever, this analysis was done only for lfie most recent AmeriCorps awards
and was not a part of the Commission's financial Management System... On grants witfiout subgrantees, such as PDA rand
Adminisfration, there was no budget line item compar~sonwith expenditures available.
Recommendation
 We recommend that ~e Commission establish policiq procedures and accounting practices wimin its current recordation
systems to utilize the respective grants' appropriation codes and budget line items for tracking the hnded and expended
amounts by grant, program year and budget line item.
<-lrin:mission Comment
The Commission disagrees with the recommendation. The Commission has been following an unpublished policy to utilize
the respective grants' appropriation codes and budget line items for tracking the funded and expended amounts by grant,
program year and budget line item. On December 10, 2001, this unpublished policy was converted to writing and
established as Policy #FE-03 of Section 9 (Fiscal Management) in the Commission's Policies and Procedures Manual. The
Manual is available for review in the Commission office.



F I N D I N G #ll
----
Condition
 The L;.mnisson Lvas unable to track michifig requkemer& on CNSgra~tsto actual matching expendiUres as required 5).
c:orpratirn Prc~visio~s. The Gbvmor's Offteti accaurti?g systm did not record m a t c h ~ qbudgets or match~ng
f:xpe17dit~re~.   To ensure matching requh-e;neiZ mr?met, separate records were maintained h r the Admin14trativeGrant
arld fcr Arnericorp and iearr~& Serve. We idenfifi4 nn C ~ ~ v m ~ s s    effurt
                                                                           i o , ~t~ configure its accounting system to record
rnatc/7ing budget and matching expenditrw amounc.. Lie Ccommissionhad not supplied matching inhmation on FSRs
urli,'.June 1998 h r tbe Adm;nistrative Sr3nf; May 1999 fi7/ An7eriCorps; and Ju& 1999 for Learn & Serve.
Recommendation
 We rcc3rr1niendmar *e i~c~nmissi(~n    e~:ah.i;s.7
                                                  po/icie$ proced~~es
                                                                    and accounting practices within its accountinqsystem to
icfentify matching requirementr by g 3 r t 2nd to mo/!iior progress toward meeting such requirements at both the
:--ornrnt.-sio!!iwa subreciuienf levevk
  .:.- n3iss:on Comlneilt
T?x,Co~nrnwondsagrees w ~ t hthe recornmendatron. The Comrn~ss~orl             has been followmq an unpubl~shedp o k y to ~dentify
ii~~i!~.hk-lg
           ;.++irements by grant and to n ~ ~ n i t Drogress
                                                    or        toward meeting such requirements a t both the commission and
s!iDrer.pent !?vets. On December 10, 2001, thls :~r!:l~hli.;herJ p o k y was cmvertecl to writing and established as Policy
-'fTI5-12 o i Sectian 9 (Fiscal Managcmz:?t) in :he Cc;r;,~rissi<in'irPolicies 2nd Procedures Manudi. The Manual is available for
review in the Cornmission office.


FINDING #12
--
Condition
Adminisbative Grant records we,-e destroyed tbr the period -7anuar;v 1994 to June 2994 although a final FSR h r tfie
Admin~strativeGrant had nor been su5,nitted. 7he Comrn,ksm followed the normal North Carolina State record retention
process resulting in the destruct4m of the Yub 1, 1993 to June 30, 1994 fiscal year records. me records were destroyed in
the fall of 2000. The Uniform Administrative Requirements issued by the Corporation state that financial andprogrmrnatic
records must be retained for aree years lion? the date the grantee submi& its last expenditure report (FSRJ. 7he
Commission has not submitted a final FSR.
Recommendation
We recommend that ex~stingCommission record retention policies and practices be modified to ensure consistency with the
Corporation4 record retention requiremen&.
<r.:T::mission Comment
The Commission disagrees with the recommendation. The Commission has been following an unpublished p o k y to ensure
consistency with the Corporation's record retention requirements. On December 10, 2001, this unpublished policy was
converted to writing and established as Policy #ES-14 of Section 9 (Fiscal Management) in the Commission's Policles and
Procedures Manual. The Manual is available for review In the Commission office.

The Administrative Grant records were destroyed for the period January 1994 to June 1994, although the final FSR for the
Administrative Grant had not been submitted. Thls lack of documentation resulted in questionable costs in the amount of
8101,686. The condition for Finding #12 states, "The Commission followed the normal North Carolina State record retention
process resulting in the destruction of the July 1, 1993 to June 30, 1994 fiscal year records." The Commission disagrees
with this statement. The Commission followed the Uniform Administrative Requirements issued by the Corporation and the
destruction of these records was by error. In accordance with the North Carolina state records retention procedure, all files
not currently needed and over three years old are transferred to State Archives for storage. All financial records from the
early years of the Commission had been archived. When the Inspector General of the Corporation notified the Commission
of the upcoming full-scop? financial audit, the Budget Officer in the Office of the Governor requested all archived financial
records for the Commission be returned from State Archives. All records were returned to the Budget Office with the
exception of the box with the January 1994 to June 1994 records. The Budget Office did not notice this box was missing
and was mistakenly included with a number of other archived records that were approved by the State Budget Office to be
destroyed in the fall of 2000. There is ample evidence that the fiscal funds of the Commission's Administrative Grant from
January 1994 through June 1994 by the State Office of Budget and Management were spent and accounted for in a manner
that is consistent with accepted accounting practices. Evidence that leads to this conclusion is as follows:
     1. The fiscal administration of all federal funds awarded to any state agency is administered in accordance with the
          North Carolina Accounting System (NCAS). North Carolina General Statute 143-16.1, titled "Federal Funds under
          the Executive Budget Act" states, "All federal funds shall be expended and reported in accordance with provision of
          the Executive Budget Act except as otherwise provided by law."
     2. The State Budget Manual issued and maintained by the North Carolina Office of State Budget and Management
          provides detailed guidance for all state departments, agencies and institution in the preparation and administration
          of their budgets.
     3. An audit of the Office of the Governor for state fiscal year 1993-94 by the independent Office of the State Auditor
          identified no findings related to the Commission or its subgrantees.
     4. The Commission submitted an FSR that covered all expenditures during the questioned timeframe..
     5. Detailed analysis by Leonard G. Birnbaum and Company, Certified Public Accounts, of the fiscal admifiistration of
          the Commiss~on'sAdmi~istrativeGrant after June 1994 shows compliance with accepted accounting practices.


FINDING #13
Condition
.----
Amounts drdwn dowrr by the Commission t o m HHS as reporied by HHS are not readily reconcilable to the amomts
reflected on tile Comm%sivn:i- records, because reconciliations of these amounts were not pen3nned.. .
--
Recornn~endam
 We recornme/?d&?at me Commiss~ionimplement a process of recof~cilingamountr drawn down as reported by HHS to the
corresponding arrow& in Lbe Commissiu~:'rr'curds. We note that-the Commission has recent4 aadded a stafmernber to
address this condition.
~ & ~ r , , i s i o CommenJ
                    n
The Cornmissicrn disagrees with the recommendation. Tne Comm~ssionhas been following an unpublished policy when
r?conc.iling amounts d r w n [!own as repctted by HtiS to the corresponding amounts in the Commission's records. Or1
Decernb~r10, 2001, this unpublished p ! ! c y was converted to writing and established as Policy #RS-05 of Section 9 (Fiscal
Management) in the Commission's Policies and Procedures Manual. The Manual is available for review in the Commissioi~
office.


FINDING #14
Condition
Subrecipients did not maintain documentation as required by AmeriCorps Provisions
(A 1 ...subrecipients did not maintain required AmeriCorps membw eligbi/i@documentation
(B) ...subrecipients did not maintain required AmeriCorps member file documentation regarding enrollment and end-of-term
(Cj ...subrecipients did not maintain required ArneriCorps member con&ac&
(Dj ...subrecipients did not document reguirw' written mid-term and end-of-termAmeriCorps member evaluations
Recommendation
 We recommend &at the Commission reemphasize the need to adhere to the documentation requirements of AmeriCorps
Provisions to its subrecipients.
::.,::?>n;;jsion
 .      - - - .-.- Comment
The Commission agrees with the importance of re-emphasizing the need for AmeriCorps subrecipients to adhere to the
documentation requirements of the AmeriCorps Provisions. Currently, the Commission requires that subreciptents maintam
complete member files (i.e. eligibility reqtiirements, enrollment and exit forms, signed member contracts, mid and end of the
year member evaluations) in the following manner:
       1) Include member documentation requirements in the Request for Proposal process and pre-application traming and
              technical assistance sessions
       2) Pre-award site visits for new programs
       3 ) Subrecipient contract which includes the AmeriCorps Provisions and Guidelines
                                                              6
    4)     AmeriCorps Program Directors' Start-up Training
    5)     Ongoing emails and other written correspondences
     6 ) Yearly review of member c o n t r x h by Commission Staff
     7) Monitoring site visits by Commission Staff
     8) Monitoring of WBRS to ensure that members are enrolled and exited in a timely fashion
The Commission understands the importance for recipients to adhere to the member documentation requirements of the
AmeriCorps provisions. The Commission is committed to working with the three former AmeriCorps subrecipients identified
in this finding for the completion of all member files. Work papers are requested. (No new written policy recommended.}


FINDING #15
Condition
 Overpayments to subrecipients went undetected b r long periods afier completion of the grant program. Or?esubrecipient in
 the AmeriCorps program...held $42,271 of unexpended hnds for a period exceeding three years. Two...subrecipients in the
 Learn & Serve program.. .have indicated overpayments open for lengthy periods. me Commission3 grant closeout process
 does not include a control procedure to compare total hnds expended by the subrecipent to total payments made by the
 Commiss;on. Closeout prxedures at the completion of a grant should incorporate a reconciliation of claimed expenditures
 as reported by the final FSR with cumulative amounts drawn down...overpayment would be pursued h r recovery.
-Recommendation
 ---
 We recommend that ihe Commission develop and implement an internal conbol procedu~to ensure that the total hnds
 expended by the subrecipient are reconciled to the total hnds disbursed by the Commission to the subrec~pient. We note
 tbat commission personnel are revising f i e closeout procedures.
Commission Comm~n
The Commission d1sagree5w ~ t hthe recommendation. The Cormi:;sion has been following an unpublished p o ' i to  ~ erisure
that the total funds exynded by the subreclpierit ar? reconciled tc the total funds disbursed by the Comrnwion to the
subrecipient. On December 10, 2001, this ~inpllblishedpolicy was convened to writing and establisiled as Policy #FIS-09 of
Section 9 (Fiscai Managemer~t)in h e Commission's Policies and Proced~irrsManual. The Manual is available for review in
the Commission office.

The Con1m:ssrori disagrees with the questionable costs of 540,975 (unexpended funds) and $1,296 (member living
allowance rehrnd) beiL9usetlie overpayment by the Commission to the North Carolina Low Income Housmg Coalition
(AmeriCorps) ID the anlount of $42,271 has been repa~dand submtted to the Division of Payment Management at Health
and Hunxin Sorv~ccs.

The Con!~nissiondisagrees with the questionable costs of $16,350 (excess drawdown) associated with the Girl Scout Counci!
vf Satiwha s'allty (Leairi and Servej. Tiese funds we;e expended for the purchase of approved equipment to support the
implenwtaticn of th: Learn and. Serve Program. I n the Girl Sco:!tsl restricted Learn and Sene account, these fur,ds were
mated ?urn tP,e " P r c q m Supplies" iirle itert? te the Fkei; Asset fund for equipment purchases. The funds were used for
tile Learn anrj Set-ve Piqran'l, but listed under a different account. A memorandum frcm the Girl Scout's CPA firm of
Lowdermilk Church & Co., L.L.P. explaining this transaction is attached (Attachment 'B"). A detailed spreadsheet from
Lowdermilk Church & Co., L.L.P. of the restricted Learn and Serve grant is also attached (Attachment "C").

The Commission disagrees with the questionable costs of $3,123 (excess drawdown) associated with Western Carolina
Center (Learn and Serve). These funds were expended to support the implementation of the Learn and Serve program.
The request by Western Carolina Center to redirect these funds from the approved budget was verbally approved by
Commission staff.



FINDING #16
Condition
Subrecipients indicated a lack of understanding of the necessary financial and accounting controls required to back and
report upon grant performance. While subrecpients have financial management systems which accommodate budgets and
incurred costs, these systems have not been adapted to meet the requirements of AmeriCorps' General Provision -
 "Financial Management Prov~sions"that states that "73;s (Financial Managemeno system must be able to /dent;@ costs by
programmatic year and budget line item. This weakness may result, in part, because t%e ~pp/iCatjoflreview board does not
                                        "


include any individual witfi accounting or financtal credentials.
Recommendation
We recommend that ths Conmission revise its grant application process to ensure that potentidial subrecpients fvly
understand required financial controls.
Commission Comment
The Commission disagrees with the reTommencation. The C;lmnission has been following an unpublished
policy to ensure that potential subrecipients fully understand required financial controls. On December 10,
2001, this unpublished policy was ccnverted to writing and established as Policy #RS-07 of Section 9 (Fiscal
Managemerit) in the Commission's Policies and Proceaures Manual. The F;:an!lal is available for review in the Commission
office.


FINDING #I 7
Condition
Learn and Serve prggram subrecpienb are not hI/v aware of all of the provisions applicable to the grant such as prohibited
activit~esand retention of records. I n one instance, records were destroyed prematurely and therefbre resulted in
questioned cosh- in an amount of $73,022 due to the absence of supporting documentation. 77;;s resultr....because the
curren! i t d f n & Serve d ward process conststs of only an '2ward lettrr "from the Commission to the subrecipiennts
Recommendation
We recomme.vd that the Ccrnrnission dweiop a c~mnprehensiveaward document that specifically, or by reference, kfentifies
the program 4 provision^ and regulations,
Cornmission Comrneng
The Corrlrnission disagrees with this recommendation. Such a docdmer:t has already been put into effect wit!? the 2001-
2001 Learn and Serve program year. The Commission has, in fact, developed a complete and iriclusive contract for Learn
and Serve America Community-Based K-12programs. This document detaiis requirements/guidelines for subgrantees in the
cornponerib of Program Management, Fiscal Management, Natioriai Identity, Participant Development, and general Grant
Provisbtls. d t ~ r r l p i i t ?is available for review in :he Csm;r:issior, ;;;fice. (Nr; new ~~ri?er!,n!?uiv,-~c~~rn~~e~?deC~,,'
                    RESPONSES TO "OPEN" PRE-AUDIT SURVEY FINDINGS
                               OIG Audit Reporf No. 00-08


F I N D I N G #3
 Lack of assessment of subgrantee applicanb' financial systems daring ffie selection process... Selection ofitcials do not
 consider the adequacy of the applicants' financial systems during the Commission3 subgrantee selection process... I n
 addition, Commissior~sel?ction procedures do not require Commission personnel to request information fiPm the applicants
related to their finanrial -ysterns.
-
Current Status
  The Commission has committed to amend its AmeriCorps procedures manual to include fiscal assessmen& before granb are
 awarded to new subrecipier/ts. We consider this finding open.
.Lornmission
 ---.   -       Comm_=_t
 Please refer to Commission Comments in OIG Audit Report #02-08 Fi:~ding#16 and the establishment of Policy #FIS-07,
 Section 3 (Fiscal Management), in the Commis;ionis Policies and Procedures Manual.




Current Status
7?Ie Commission is conm$ted to ensure that all F S B submitted by s~breclpients,as well as FSRs submitted by the
Com1nis.5;or; to me Corporation are retained and avdi!&le f i ~review
                                                                r     We consider 6% finding open.
- -
Comn?ission Comment:
Piease refer to Commission Comments in OIG Audit Report #G2-08 Firdings #5 and #12, and the establishment of Policies
#RS-10 and #FIS-14, Sectiol-I9 (Fiscdl Management), in the Commission's Policies and Proceduies Manual.


F I N D I N G #7
me Commissionls evaluating and monitoring system fbr subgrantees needs to be improved. During our review of
monitoring .Folders for subgrantees, we determined that certain information was not included. Sperlfically, the names of the
member fi/es reviewed, ~dentificationof member files where exceptions were noted and procedures followed to select
menber files reviewed were not included. I n audition, comments i~cludedon ffie checklists were general in nature and
prevented others or us from re-performing procedures completed b,v North Carolina Commiss~mpzrsonnel. The lack of
specific documentation prevenb us from detennlning the adequacy of the monitoring procedures performed by North
Carolina Commissionpesonfiel.
Current Status
The Cornm~ission,wwhe noting chat it fi~l/ows                monitoring module, has proposed that it enlist management
                                             me cb/;no~.~tion's
COflS~ltafltrwithin &e No& Carolina Office of8udget and Management to identiw component3 of the current monitor~n,g
to01 in need of s&engt7en1fig and deveiop stiJteges to address such 2reas. We consider ths finding open.
fommission Cornmesf
The Commission revised its rnonltoring tuol fur WOO-01.The new tool has the following components: Review of member
files, AmeriCorps member training, superwsion and support, reporting and communication, grantee policies and procedures,
AmeriCorps program objectives and evaluation, financial maiiagement, continuous improvement and community
consultation, service site visits, interview with member and ~nterviewwith site supervisor.

Module C; AmeriCotps Member Files is designed to include the name of each member file sampled. During each site visit,
we take copies of all files sampled and note any foliow up needed. immediate feedback is given at the end of each site visit.
The Program Director signs off on the tool at the end of each visit, confirming they are aware of, and agree with, any
findings. Written feedback and a copy of monitoring tool is provided to the subgrantee at a later date.

I n response to the audit, the Commission again revised its monitoring tocl for FY 01-02(Attachment "D"). The tool consists
of the following components:
          Module A:                Record of Grantee Performance
      e   Mcdule B:                Policies and Procedures
          Module C:                AmeriCorps Member Persofinel Files
          Module D:                AmeriCorps Member support, Training arid Supervision
          Module E,                Program Evaluation
          Module F.                Financial Compliance
          Module G:                Continuous Improvement and CommuniQ Consultation
          Module H:                Service Site Visits
          Mcdule I:                 Financial Status Report Anaiysis and Feedbark
          Mobu!e .I,               Drcqress Repar t Fcc3Sa;k
           Iv;od;~ieK:              Fceview of Cont!n!-!inq3+ P.e-comp2tingPr 3;::r:?5
      *   Piodule L:               tiranCeeAlldii ji.~pi)it  cyor~trr?i
                                                                     1.09
           Mod~ileM:                Fr:.cj:arn Inclusion a x ! .x~ess!bilty
P i s inciusive i n c n i t w i q ton: fi~rthere n h n c e i*c i:orriniis;m's abilib; to aaequatdy evalua:? 2nd monitor subgrantees.


FINDXFJS # 8
iXk   .:if                     r:.'~rckwcf ONE Cicr.!c7r A -/33R e p & or cot'!e,r!rrts19t
          (%-)f~rrric2;?i~tiC3~?                                                            ,-epw& finm subgrantees .. F o w ~ v ethe   ~
           .fms n3:
LrOn~rnss;a,~               ,~:J:;::.-E.+ t k re#r'w J: scc&ia~;tee! W E G i 0;4r ,4-.1.?:. z c l t s gr otnc?raudit reports 32 pan of the
 rnor~&?~i~_?  ,0r0r&~5. ;7i-t';&vy we w m .set &!e rs dcfmine ~fthe L ' c m i n k i i ~routine!y reviews these repa*                   to
 detmmhe if a~/ditors     have 9enf:ficld ro.r!tro/we2&!~5:~5     cr !nstaffc%- s..f w l ; ' - ~ rrelatedc       to the Ameri2oOys,oropm.
-----
Cwrent Status
           ---
The Ci~rnrnis;ior';, W i l e :;oti;zl;its cor;ig!~ancewrtr: the C9rporaiion s ?olic:s anc! Procedures Hawal, specifically that sectlon
entitied "Trac-in? Flndiv~:; of Oudit Repa.-ts," :,as committee tc~req!:i;e C'~~~;lrllis/o!:        staff t.r? attach a memorandum to the
 audit ~ e p o r hewdencirq revlew of the reports b?!ore they are filed. 'We cor;c:der this finding to remain open.
-Contmission Comment
 Please refer to Commission Comments in OIG Audit Report #02-08Finding #7 and the establishment of Policy #RS-04,
 Section 9 (Fiscal Management), in the Commission's Policies and Prccedures Manual.
                                RESPONSE TO QUESTIONABLE COSTS
                                     O X Alidit Report #02-08
                                     -
The North Carolina Commission on Volunteerism and Community Service wishes to respond t o the following
questionable costs outlined in OIG Audit Report #02-08, Results in Br~ef


AMEMCORPS
                                        -
     Member Living Al/owances Overpayments                                            $21,042
     NOTE: The Commission requests the auditors' work papers that indicate the computation or audit
     methodology used to calculate these questionable costs. (See response to audit Finding #14.)

                                      -
     Member Living Al/owance Lack of Eligibility Documentation                        $79,970
     The Commission is committed to working with the three former AmeriCorps subrecipients identified in
     :his finding for the completion of all member files (NC State - $28,802; Low Income Housing - $46,006;
     WJC-CH - $5,162). Living allowances and related benefits were questioned.
     NOTE: The Commission requests the auditors' work papers that indicate the missing documents from
     individual member files that were used to calculate these questionable costs.

       Unsupported Costs (lack of documentationj                                              $195,219
     Th? Commission disagrees with the questionable cost of $193,113 (NC State boiversity-Wayne County).
     ij:~?to thelr interpretation of the record's retention clause of the AmeriCorpc, Prsvisions which st3tes, "All
     ?iJy.2   '-.&! records, supporting documentation, statistical records, evaluation data, participant information,
     :!i: pcvsonnel records for three years from the date of the final subrn~ssionof the Financial Status
     '"le~oit",all recgrds for the time period of October 1, 1994 - September 30, 1995 were destroyed in
     5e~tx-1ber.        1993. The University submitted a final FSR that covered ali expenditures during the
     ::~?sti3ried timeframe. For tile year 1994-95 for which the files had been destroyed, there were no
         b.,..Ju!aritits
         '.,
       .A,.              in North Carolina State University's A-133 Audit Report that may have involved the
     .~i~:ni!!rstraticr?of the AmeriCorps program.
     , . -.
     :.!,if   t-.: The Cumrnission requesb the auditors' work papers that indicate the computation or audit
     r~:eii?or;olcgyw d to calculate the remaining $2,106 questionable costs.
s     kinty.xpendedFunds Not Returned to the Commission or Corporation                                $42,271
      .-;ha          .  .          .
        . - C-,n?,n,.~: ._.:lt.,,t: disagrees with the questionab!e cost of 942,271. The o v e i p y ~ i ~by
                                                                                                          n t the Commission
     :s the NC Low Income Housing Coalition (AmeriCorps program) has been repdid and submitted to the
     Uivision of Payment Management at Health and Human Services. (See response to audit Finding R15.)

     UnauthorizedExpenditure                                                        $2,674
     The Commission disagrees with the questionable cost of $2,674 associated with the North Carolina Low
     Income Housing Coalition. This questioned amount represents North Carolina Unemployment Insurance
     liability, which would be considered an allowable expense if included in the approved budget. (See
     e s p ~ n s eto audit Fir~dir~g
                                  R4.)

     Administrative Costs Questioned - Incorrect Rate                                       $13,162
     The Commission disagrees with the questionable cost of $8,076 associated with exceeding the 5%
     administrative cost ceiling at UNC-Child Care Corps. Administrative costs were budgeted to provide a six-
     week training course to AmeriCorps members. While these funds could have been used to support
     administrative costs, the University chose to use the funds for direct training costs.

     The Commission disagrees with the questionable cost of $5,086. The Commission made a three-year
     AmeriCorps grant to the NC Low Income Housing Coalition from FY 94-95 through FY 96-97. The
     administrative costs claimed during this 3-year period was below the allowable 5@/0 administrative cost
     cei Iing . (See response to audit Finding f 6.)
    Administrative Costr Questioned-Applicable to other Questioned Costs $13,763
    NOTE: The Commission requests the auditors' work papers that indicate the computation or audit
    methodology used to calculate these questionable costs.

    Questioned Education A wards                                                 $42,525
    On December 11, 2001, the Commission received from the Office of the Inspector General a roster of
    names of AmeriCorps members whose educational awards were questioned. (See response to audit
    Finding #14.)
    NOTE: The Commission requests the auditors' work papers that indicate the missing documents from
    individual member files that were used t o calculate these education awards.


LEARN AND SERVE
    Unsupported Costs (Lack of Documentation)                                            $73,022
    The Commission disagrees with the questioned costs of $73,022 associated with the Catawba Valley Girl
    Scout Council. Due to their interpretation of the records retention clause of the Learn and Sewe
    Provisions, financial records for 1994-97 were destroyed by the Catawba Valley Girl Scout Council on the
    advice of their accounting firm. The Girl Scout Council submitted a final FSR that covered all expenditures
    during the questioned timeframe. I n addition, since 1994 the organization has undergone an annual
    individual audit that has shown, without exception, that Learn and Serve funds were budgeted by
    approved line items and spent/accounted for in a manner consistent with accepted accounting practices.
    These audit reports also indicate that, consistent with Learn and Serve Provisions, grant monies were kept
    in a segregated account (A-9) separate from the organization's general operating fund (A-1). Although
    origina! receipts andlor documentation from 1994-97 were destroyed, these existing audit reports and
    papers show that the $73,022 wzs expended \r;i:fiin Learn and Serve guidelines. (See response to audit
    Fi~ding#I 7.)

     Unexgended Funds Not Returned to fhz Commission/Corporation                       $19,473
    The Cornnlission disagrees with the q~restionablecosts of $16,350 associated with the Girl Scout Council
    of Catawha Valley. These funds wcrr-: expended for the purchase of approved equipment t o support the
    irnpkmmentation of the Learn and Serve Program. I n the Girl Scouts' restricted Learn and Serve account,
    these f~indswere moved from the "Progrm Supplies" line item to the Fixed Asset fund for equipment
    purchases. 7'he funds were used for the Learn and Serve Program, but listed under a different account.
    A n~trrnorandumfrom the Girl Scout's CP4 firm of Lowdermilk Church & Co., L.L.P, explaining this
    transaction is attached (Attachment " B ) . A detailed spreadsheet from Lowdermilk Church & Co., L.L.P. of
    the rest.ricted Learn and Serve grant is also attached (Attachment "C"). (See response to audit Finding
     #IS.)

    The Commission disagrees with the questionable costs of $3,123 associated with Western Carolina
    Center. These funds were expended to support the implementation of the Learn and Serve program.
    The request by Western Carolina Center to redirect these funds from the approved budget was verbally
    approved by Commission staff. (See response to audit Finding #IS,)


-
PDAT
    Unsupported Costr (Lack of Documentation)                                $433
    An explanation of this cost was not included In the audit report.
    NOTE: The Commission requests the auditors' work papers that indicate the computation or audit
    methodology used to calculate this questionable cost.


Administration
    Unsupported Costs (Lack of Documentation)                                        $101,686
    The Administrative Grant records were destroyed for the period January 1994 to june 1994. This lack of
    documentation resulted in questionable costs in the amount of $101,686. The condition for Finding #12
    states, "The Commission followed the normal North Carolina State record retention process resultmg in
    the destruction of the July 1, 1.993 to lune 30, 1994 fiscal year records." The commission disagrees with
    this statement. The Comrniss~onfollowed the Uniform Administrative Requirements issued by the
    Corporation. I n accordance with the North Carolina state records retention procedure, all files not
    currently needed and over three years old are transferred to State Archives for storage. All financial
    records from the early years of the Commission had been archived. When the Inspector General of the
    Corporation notified the Commission of the upcoming fullscope financial audit, the Budget Officer in the
    Office of the Governor requested all archived financial records for the Commission be returned from State
    Archives. Al! records were returned to the Budget Office with the exception of the box with the January
    1994 to June 1994 records. The Budget m c e did not notice this box was missing and was mistakenly
    included with a number of other archived records that were approved by the State Budget Office to be
    destroyed in the fall of 2000. There is ample evidence that the fiscal funds of the Commission's
    Administrative Grant from January 1994 through June 1994 by the State Office of Budget and
    Management were spent and accounted for in a manner that is consistent with accepted accounting
    practices. Other evidence leads to this conclusion as follows:
                The fiscal administration of all federal funds awarded to any state agency is administered in
                accordance with the North Carolina Accounting System (NCAS). North Carolina General Statute
                143-16.1, titled "Federal Funds under the Executive Budget Act" states, "All federal funds shall
                be expended and reported in accordance with provision of the Executive Budget Act except as
                otherwise provided by law."
                The State Budget Manual issued and maintained by the North Carolina Office of State Budget
                and Yanagement provides detailed guidance for all state departments, agencies and institution
                in trip oreparation and admii!istratior! of their budgets.
                An audit of the Office of the Governor for state fiscal year 1993-94 by the independent Office of
                the State Auditor identified no findings related to the Commission or its subgrantees.
                The Commission submitted an FSR that covered all expenditures during the questioned
                tirr~eframe.
                Detaiiecl analysis by Leonard G. Birnbaurn and Company, Certified Public Accounts, of the fiscal
                adminiritration of the Commissicn's Administrative Grant after June 1994 shows compliance with
                acceptec accounting practices.
     ( : S presponse lo audtt Finding #12.)

*   Ofher                                                                                $3,171
              The Commission disagrees with the questio~ablecost of $2,155 associated with a purchase of
              equipment in 1995. This questioned amount would have been considered an allowable expense
              if included in the approved budget.
              The Commission disagrees with the questionable cost of $602 (duplicate payment for office
              supplies). The Commission has resolved this duplication of payment with the vendor.
              The Commission disagrees with the questionable cost of $132 (unreasonable hotel charge).
              The hotel did not honor the rate established for conference participants.
              The Commission disagrees with the questionable cost of $282 (print and framing). Ifincluded
              in the approved budget in the line item of Commissioner support/recognition, this would have
              been an allowable expense.

     Questioned Costs Due To Match Shorffall                                             $5,189
    The Commission disagrees with the assertion that matching requirements of the Administrative grant
    were not met for the 1994-95 program year. Finding #9 indicates an Administrative match shortfall of
    $1,747 for this year. Signed certifications documenting time contributed to the administrative functlon of
    the Commission by two employees who worked at that time in the Personnel/Payroll Office and the
    BudgetingjAccounting Office in the Office of the Governor were not initially included with other match
    documents. These certifications were not included in the original match calculations for the second year
    as we initially felt our previously identified match was sufficient. Also, pages 3 and 23 (Exhibit D) of the
    draft audit report erroneously show this match shortfall to be $5,189. (See response to audit Finding #9.)
    NOTE: The Commission requests the auditors' work papers that indicate the computation or audit
    methodology used to calculate this questionable cost.
                           REQUEST FOR AUDITORS' WORK PAPERS
                                            O I G AUDIT #02-08


The North Carolina Commission on Volunteerism and Community Service requests the auditors' work papers as
they relate to the following questionable costs.

                                         QUESTIONABLE COSTS


                                    -
     Member Living Allowance Overpayments
     The Commission cannot determine how this cost was calculated.

     Member Living A//owance - Lack of Eligibility Documentation                              $79,970
     The Commission is committed t o working with the three former AmeriCorps subrecip~entsidentified in this
     finding for the completion of all member files (NC State - $28,802; Low Income Housing - $46,006; UNC-
     CH - $5,162). Living allowances and related benefits were questioned. The Commission requests the
     work papers that indicate which documents are missing from member files.

     Uns~fpportedCosts (lack of documentationj                                               $195,219
     The Commission can account for $193,113 of the rjuest~onablecosts in the category; however, it is unable
     to determine how the remaining $2,100 was caiciriated.

     Adininistmtfn?Costr Questioned-App/icab/cto other Questioned Costs                            $13,763
     The Cornmissir~r!cannot determine hov; t h ~ sccst was cxulated.

     Questionedfd'ucation A wards                                                     $42,525
     The Commission cannot determine how this cost was calculated. The Commission requests the work
     papers that indicate which documents are missing from member files to calculate the questioned
     education awards.


---
I'D AT
a    Unsupported Costs (Lack of Documenfatim~
     The Commrssion cannot determine how this cost was calculated.


LEARN AND SERVE
    No work papers requested




     Questioned Costs Due to Match ShoMaN                                                           $S,189
     The audit report contains a discrepancy in the amount of match shortfall. Finding #9 indicates a shortfall
     of $1,747; Pages 3 and 23 (Exhibit D) indicate a match of shortfall of $5,189. Signed certifications
     documenting time contributed t o the administrative function of the Commission by two employees who
     worked at that time in the Personnel/Payroll Office and the Budgeting/Accounting Office in the Office of
     the Governor were not initially included with other match documents. These certifications were not
     included in the original match calculations for the second year as we initially felt our previously identified
     match was sufficient.
                         Appendix B


Response of the Corporation for National and Community Service
                                                                             CORPORATION
                                                                              FOR NATIONAL




      MEMORANDUM

      TO:                           Luise S. Jordan, Inspector General

      THRU:                         William Anderson, Deputy Chief Financial 0

      FROM:                         Peg Rosenberry, Director of Grants Manag&kn(
                                    Peter Heinaru, Director of ArneriCorps ~tate/Na,honal
                                                                                                                f
      DATE:                         January 2,2002

      SUBJECT:                      Response to OIG Draft Audit report 02-08: Audit of Corporation for
                                    National and Community Service Grant Numbers 94ASCNC034,
                                    94LCSNC010,95PDSNC027, and 94SCSNC027, Awarded to the North
                                    Carolina Commission on Volunteerism and Community Service



      We have reviewed the draft audit report of the North Carolina Commission on
      Volunteerism and Community Service grants. Due to the limited timeframe for
      response, we have not yet conducted a comprehensive review nor analyzed
      documentation from the North Carolina Commission supporting the questioned costs.
      We will respond to all findings and recommendations when the audit is issued. The
      North Carolina Commission has provided an extensive response and begun corrective
      action as needed. As noted in the Commission response, we, too, will need to review the
      working papers to resolve most of the questioned costs. In many cases, we cannot
      determine the basis for the questioned costs without that documentation.




NATIONAL SERVICE: GETTING THINGS DONE                                                      1201 New York Avenue, N.W. Washington, D.C. 20525
4mer1(or/   r   ~   ~      t r k n e ~ t vrrur
                        r wrd              i     \ c i t w ~ \~~dN        ~ ~~IL P(or/)\
                                                                     I O\ Y                telephone: 102-606-jO00 website: nwwnationdselvice.orgce.o~
